         OFFICE OF INSPECTOR GENERAL

                                 Catalyst for Improving the Environment


Evaluation Report




       Tribal Superfund Program
       Needs Clear Direction and Actions
       to Improve Effectiveness

       Report No. 2004-P-00035


       September 30, 2004
Report Contributors:        Katherine Thompson
                            Carol Kwok




Abbreviations

CERCLA           Comprehensive Environmental Response, Compensation, and Liability Act
                 (also known as Superfund)

EPA              U.S. Environmental Protection Agency

NPL              National Priorities List

NTEC             National Tribal Environmental Council

OIG              Office of Inspector General

OSWER            EPA’s Office of Solid Waste and Emergency Response

TASWER           Tribal Association on Solid Waste and Emergency Response




Cover photo: Acid mine drainage from the Leviathan Mine in California has impacted Washoe
tribal resources (photo courtesy of Washoe Tribe).
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                      September 30, 2004

MEMORANDUM

SUBJECT:      Tribal Superfund Program Needs Clear Direction and Actions to
              Improve Effectiveness
              Report No. 2004-P-00035


FROM:         Carolyn Copper
              Director, Hazardous Waste Issues
              Office of Program Evaluation

TO:           Thomas P. Dunne
              Acting Assistant Administrator
              Office of Solid Waste and Emergency Response


This is the final report on our evaluation of the Tribal Superfund Program conducted by the
Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).

This report contains findings that describe problems we have identified and corrective actions we
recommend. This report represents the opinion of the OIG; the findings in this report do not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers according to EPA audit resolution procedures.

We provided you with a draft report on June 9, 2004. The EPA Office of Solid Waste and
Emergency Response (OSWER) on July 28, 2004, provided us the Agency responses, including
those on behalf of Regions 9 and 10. In addition, we received extensive tribal comments.
OSWER agreed to take action on our recommendations. Regions and tribes made suggestions
for improving the accuracy of the draft report.

Action Required

According to EPA Manual 2750, you (as the action official) are required to provide this office
with a written response to this report within 90 days of its issuance. The response should
specifically address each recommendation. For corrective actions planned but not completed by
the response date, please provide the specific milestone dates for completing these actions.
We have no objection to release of this report to the public. Additional copies of this report may
be obtained from us or our website, www.epa.gov/oig. If you or your staff have any questions,
please contact me at (202) 566-0829, or Katherine Thompson, Assignment Manager, at
(916) 498-6535.
                    Executive Summary
Purpose
          The U.S. Environmental Protection Agency’s (EPA’s) strategy to achieve its
          goals, including those addressing the cleanup of hazardous waste, is dependent
          upon partnerships, notably those with tribes and States. While American Indian
          tribes are treated substantially similar to States regarding Superfund activity,
          EPA’s Federal trust responsibility creates a special obligation to consult with
          tribes, consider tribal interests, and protect tribal rights. Formidable challenges in
          EPA’s partnership efforts with tribes include the large number and wide
          dispersion of tribes and a “close to the land” lifestyle that results in
          disproportionate impacts to tribes.

          EPA’s Office of Solid Waste and Emergency Response asked that we evaluate the
          progress the Agency is making enhancing the role of Indian tribes in the
          Superfund program. We evaluated the effectiveness of: actions EPA has taken to
          enhance the role of the tribes; EPA’s primary initiative for enhancing tribal
          relationships in Superfund; EPA’s system for measuring and accounting for
          progress; and regional processes in enhancing working relationships with tribes.

Results

          Tribal representatives recognized that EPA has been a Federal leader in its efforts
          to develop tribal relationships and fulfill trust responsibilities. EPA was the first
          Federal agency to adopt a formal Indian policy. It has also established an
          American Indian Environmental Office and a Tribal Operations Committee. EPA
          has undertaken three major efforts since 1998 to enhance the tribal role in the
          Superfund program and improve its relationships with the tribes, but those
          initiatives have had limited success. The primary initiative, the development of a
          1998 enhancement plan, has provided some benefits but it is no longer playing a
          significant role. Also, EPA has yet to complete its 1999 action plan in response
          to a national forum, and an EPA-created tribal association has not met its goals.
          These efforts have not been completed or benefits fully realized because EPA has
          not monitored their progress and effectiveness or taken necessary action when
          needed. Moreover, incomplete critical actions, such as development of a baseline
          inventory and risk tools, are hampering the development of the tribal Superfund
          program. In turn, the degree to which the Superfund program is effectively
          addressing risks to human health and the environment in Indian country, and
          enhancing tribal participation in Superfund, has been impacted.

          EPA has not fully developed its tribal strategy in relation to Superfund, even
          though it was initiated in 2002. A key factor for this occurring is that the tribal
          strategy lacks a detailed implementation plan, including milestones, priorities,

                                                 i
         targets, and resources, along with corresponding measures to track its progress
         and effectiveness. Also, strategy completion has been hindered because of little
         emphasis from top leadership, a lack of clear goals, missing critical information
         such as an inventory, and EPA regions not being included in its development. In
         the absence of clear direction, EPA regions have developed divergent regional
         tribal programs. Consequently, the Agency does not have a sufficient
         accountability system in place to measure or evaluate its progress in enhancing
         the tribal role in the Superfund program. This makes it difficult for EPA to meet
         its responsibility to consult with and protect the interests of tribes when making
         Superfund decisions, and complete critical actions necessary to fully enhance the
         tribal role in the Superfund program.

         Case studies of six tribes show that EPA can improve its working relationships
         with tribes. Typically, tribes initiate relationships with EPA. The stronger and
         more effective relationships exhibit four important characteristics: frequent and
         timely communication, appropriate information sharing, addressing issues raised
         by tribes, and operating in a government-to-government relationship. Tribal and
         EPA staff also indicate good interpersonal relationships and funding contribute to
         successful relationships. There are various reasons for conflicts in EPA-tribal
         relationships, including varying expectations of roles and responsibilities,
         differences in views, unclear consultation procedures, and a lack of transparency
         of EPA’s Superfund process. Successful relationships can decrease both the time
         and resources necessary for investigation, provide access to tribal expertise and
         information, and encourage tribal participation in mitigation. Ultimately,
         successful partnerships create stronger, more effective decisions.

Recommendations

         We recommend that the Acting Assistant Administrator for Solid Waste and
         Emergency Response take a leadership role in developing a Superfund tribal
         strategy and policy, and deploy resources accordingly. We also recommend that
         EPA establish a stronger foundation for tribal working relationships by providing
         clear guidance for tribal consultation and establishing site-specific written
         agreements for significant tribal relationships. EPA should also establish a forum
         for exchanging best practices and “lessons learned.”

Agency Comments, Tribal Comments, and OIG Evaluation

         The Agency concurred with our recommendations and agreed to take actions to
         finalize its tribal strategy, with tribal and regional input, during fiscal 2005. To
         meet this goal, the Office of Solid Waste and Emergency Response stated it
         would identify, evaluate, and communicate the Superfund program’s current tribal
         priorities and provide a general outline and timeframe to accomplish activities to
         fulfill our recommendations.



                                              ii
Region 9 stated the draft report misrepresented the facts in several key areas with
respect to the Leviathan Mine case study (Washoe Tribe). The Region provided
additional information regarding its efforts to respond to tribal concerns, and
asked that we not publish the full text of its comments.

The Washoe Tribe pointed out additional issues related to effective EPA-tribal
coordination. While it agreed that risk assessment inputs have taken longer than
anticipated, it noted that schedule delays for reasons unconnected with the Tribe
have resulted in submission of the Tribe’s risk assessment deliverables when
needed. It also observed that more effective coordination would help avoid
delays.

We received extensive comments from the Navajo Nation Waste Regulatory
Compliance Department staff, which are included as Appendix B. The Navajo
waste department staff identified issues that have hampered effective cleanup;
described perceived shortfalls in EPA’s processes, standards, and regulations; and
made numerous recommendations for improving the program.

A Navajo waste official noted that the cultural survival of tribes is directly
affected by a tribe’s cultural and traditional values that are central to protecting
human health and the environment in Indian country. The official stated that EPA
standards and regulations are not sensitive to tribal values even when these values
are a part of tribal regulations and decisions. Too often, the official stated, EPA’s
cleanup decisions are in direct conflict with a tribe’s cleanup decision, weighing
tribal decisions against cost and going so far as to exclude tribal lands from
cleanup decisions.

We have fully considered the comments we received from EPA’s Office of Solid
Waste and Emergency Response, Regions 9 and 10, as well as the tribes, and
made changes to the report as we deemed appropriate.




                                     iii
iv
                                     Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    i



 Chapters

          1         Introduction           ..........................................                                            1

          2         Important Initiatives to Enhance Tribal Role
                    and Relationships Remain Incomplete . . . . . . . . . . . . . . . . . . . .                                  7

          3         EPA Needs to Improve Strategy for
                    Tribal Superfund Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      15

          4         Tribal Relationships Beneficial But Guidance
                    Can Improve Consultation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              27



 Appendices

          A         Agency Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . .                             41

          B         Navajo Nation Comments on Case Study . . . . . . . . . . . . . . . . . . .                                  47

          C         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          63




                                                                v
                                Chapter 1
                                 Introduction
Purpose

          The Environmental Protection Agency’s (EPA’s) Office of Solid Waste and
          Emergency Response (OSWER) asked that we evaluate the progress the Agency
          was making in enhancing the role of Indian tribes in the Superfund program.
          To address EPA’s question, we sought to answer the following questions:

          •   What actions has EPA taken to enhance the role of Indian tribes in the
              Superfund program?

          •   Has EPA's primary initiative for enhancing tribal relationships in Superfund
              (the Superfund Enhanced State and Tribal Role initiative) been effective?

          •   What is EPA's system for measuring and accounting for progress on its
              objective to enhance the role of tribes in the Superfund program?

          •   Have EPA regional processes or actions to enhance the role of tribes in the
              Superfund program been effective in enhancing working relationships with
              tribes?

Background

          Tribes Present Unique Challenges

          EPA faces substantial challenges in its efforts to enhance the tribal role in the
          Superfund program. These challenges include the number and dispersion of
          tribes, unique aspects of tribal culture and tribal governments, Federal trust
          responsibility, complex land and jurisdictional issues, and declining Superfund
          resources.

          There are over 560 Federally-recognized tribes scattered geographically
          throughout the United States in 9 EPA regions (there are no recognized tribes in
          Region 3). This includes about 225 Alaskan native villages in Region 10, but
          they have a significantly different relationship with the Federal Government than
          tribes in the 48 contiguous United States; one reason is because of the Alaska
          Native Claims Settlement Act of 1971. Indian tribes and individual Indians have
          rights in land that were established and are held in varying ways. The term
          “Indian country” describes Indian land and has legal importance; it determines
          where Federal Indian law and tribal laws apply (State laws generally have no
          effect). Congress has codified the definition of “Indian country” and it includes


                                            1
                  Indian reservations and Indian allotments.1 Ceded territory (aboriginal lands sold
                  by treaty or agreement with the United States) generally do not constitute Indian
                  country, but many tribes retain resource rights in these territories (known as
                  treaty-right areas). Generically, Indian land describes land historically held by
                  Indians under some restriction or some attribute peculiar to Indian status and can
                  include treaty-right areas.

                  Due to subsistence lifestyles, spiritual practices, and other cultural behaviors,
                  tribes have multiple exposures from resource use that could result in
                  disproportionate environmental impacts to tribes. The tribal government
                  constituency is
                  predominantly poor (see                    Economic Conditions On Reservations
                  figure 1-1) and tribal                            Lower Than Total Population
                  governments generally do           50%
                  not preside over healthy                        Unemployment      Poverty
                                                     40%
                  economies, which limits               Percent
                  their revenue sources.             30%

                  Indians have the worst             20%
                  health statistics in the
                                                     10%
                  country, and environmental
                  mitigation in tribal                0%
                                                                   Total    American Indian    Reservation
                  communities is
                                                                            Type of Population
                  significantly behind that of
                                                  Source: 2000 Census
                  non-tribal communities.
                                                        Figure 1-1
                  According to a recent
                  report, “Native America at the New Millennium,” while a growing number of
                  tribes are building sustainable economies, Indian country has a long way to go
                  before economic prosperity becomes a widespread reality. Moreover, the low
                  base of income, wealth, and human capital from which Indian economic
                  development started means that even where casino and other enterprises have
                  been successful, much still needs to be done.

                  Because tribes are sovereign, EPA must honor a direct government-to-
                  government relationship with tribes. Tribal sovereignty is the right of tribes, as
                  “domestic, dependent nations,” to exercise self-determination and the right to
                  self-government, unless these powers have been modified by treaties or an act of
                  Congress. Tribes have the authority to, among other things, assert jurisdiction
                  over the people and their land, and create and enforce legislation. Moreover, EPA
                  has a Federal trust responsibility to consult with and consider the interests of
                  tribes in conducting its activities and ensure its actions protect tribal treaty rights.
                  The general trust provides one basis for the legal principle that ambiguities or
                  doubts in statutes must be construed in favor of Indians.

         1
          Indian country is (1) land within the limits of any Indian reservation; (2) dependent Indian communities
within original or acquired territory; and (3) Indian allotments, the Indian titles to which have not been extinguished.

                                                                  2
Considering the interests of tribes can be a difficult matter because tribal rights
may not be readily apparent. In a number of Indian treaties, especially in the
Pacific Northwest and Great Lakes areas, tribes explicitly reserved rights
pertaining to the environment, including rights to fish, hunt, and gather in ceded
territories (outside of reservations) that were their “usual and accustomed”
hunting and fishing areas. For example, the Suquamish Tribe’s treaty-reserved
resources included its adjudicated usual and accustomed fishing area – about
3,500 square miles in the Puget Sound area – resulting in the tribe having a vested
interest in 11 Superfund sites that impact its fishing rights.

Tribal Superfund Authorities and Resources

Under the Comprehensive Environmental Response, Compensation, and Liability
Act (CERCLA – also known as Superfund), Indian tribes are treated similar to
States and can serve as co-implementors of Superfund response actions.
However, unlike States, CERCLA does not provide tribes with authority to
designate their highest priority sites for placement on the National Priorities List
(NPL). Also, unlike States, tribes have a unique legal status that includes a trust
responsibility on the part of the Federal Government. According to its trust
responsibility, EPA must consider the interests of tribes in conducting its
activities and ensure its actions protect tribal treaty rights.

Throughout the 1980s, awareness of the need to address tribal environmental
problems increased, for several reasons. One was that tribes were asserting their
sovereignty and specific jurisdiction over governmental functions in Indian
country, including environmental programs (notably, water quality programs).
Further, in 1984, EPA adopted its Indian policy that supported Indian self-
government for environmental management as well as government-to-government
relationships with tribes. Last, in the early 1990s, tribes began to become
involved with Superfund sites. For example, EPA Region 2 provided financial
assistance to the St. Regis Mohawk Tribe to facilitate its involvement in
Superfund response activities at the General Motors-Massena NPL site.

In 1998, two important actions propelled EPA’s efforts to enhance the tribal role
in Superfund:

•   In February 1998, the National Tribal Environmental Council (NTEC) hosted
    a national tribal forum on impediments to implementing tribal waste
    programs. In response to forum recommendations, OSWER in 1999 issued an
    action plan to address these impediments and enhance the tribes’ Superfund
    role.




                                  3
               • In March 1998, EPA issued its Plan to Enhance the Role of States and Tribes
                 in the Superfund Program. This important initiative included numerous
                 recommendations for enhancing the tribal role, and also resulted in initiation
                 of nine tribal pilot projects that further spurred EPA’s tribal involvement.

                                                                                 By 2003, about $22.6 million in
                   Millions of dollars obligated                                 Superfund monies had been
                                  Region 2
                                   8.2%
                                                                                 obligated for about 60 tribes, or
                          Region 1                Region 4                       tribal consortia. These monies
                           $0.04                   $0.13
                           0.2%                    0.6%                          provided funding for various
           Region 10                                 Region 5                    activities, including assessments
            17.2%                                      $0.88
                                                       3.9%                      and investigations, Superfund
                                      $1.86
                         $3.89                                                   “core” program funding, and
                                                                                 tribal support work at sites.
                 $5.12                        $8.01
                                                                                 Figure 1-2 shows the breakdown
                                                                                 of funds by region for fiscal
Region 9                      $2.70
 22.6%                                                      Region 6             years 1996 through 2003. Most
                                                             35.4%
                                                                                 of these funds (87 percent) were
                                                                                 obligated by EPA Regions 6, 8,
                   Region 8
                    11.9%                                                        9, and 10. The most common
                                                                                 involvement of the tribes is at
           Figure 1-2: Superfund Obligations by Region                           the site-specific level.

              Tribes have also been provided Superfund funding for developing emergency
              response plans and for Brownfields projects. (Beginning in fiscal 2003,
              Brownfields projects are funded separately.) In some cases, funding has
              benefitted a consortium of tribes; for example, Region 6 has provided over
              $4.1 million to the Cherokee Nation to fund activities of an intertribal consortium
              of over 30 member tribes. In most cases, however, tribes are not leading
              assessments, investigations, or remediation efforts.

              Although the scope of hazardous                                    NPL (or Equivalent) Sites and
              waste issues impacting tribes has                              Impacted Tribes Varies Widely by Region
              not been fully identified, as of                      25
                                                                                          NPL Sites   Tribes
              September 30, 2002, regions                           20
              reported that 561 preliminary
                                                                    15
              assessments or site investigations
              had been performed. They also                         10
              reported 602 sites on or                              5
              impacting Indian country and 172
                                                                    0
              sites with tribal funding or a                             1       2    4     5     6     7      8   9   10

                                                                         Figure 1-3




                                                                4
                  tribal-lead action.2 As shown in Figure 1-3, regions identified approximately
                  55 NPL sites or equivalent sites impacting 50 tribes.3

                  Tribes can receive funding from other EPA programs and sources to address their
                  hazardous waste issues. For example, the Resource Conservation and Recovery
                  Act has limited authority for hazardous waste cleanup. EPA’s General Assistance
                  Program for tribes provides funding to build tribal capacity for developing
                  environmental programs, including the development and implementation of solid
                  and hazardous waste management programs. Other Federal programs also
                  address hazardous waste issues on Indian land. For example, the Department of
                  Defense has a Native American Lands Environmental Mitigation Program to
                  address environmental impacts on Indian lands.

 Scope and Methodology

                  We conducted the field work for our evaluation from January to September 2003.
                  We performed our evaluation in accordance with Government Auditing
                  Standards, issued by the Comptroller General of the United States.

                  We took into account the results of prior OIG reviews and decisions, including:

                  •   Costs Claimed by Tribal Association on Solid Waste and Emergency
                      Response Under EPA Assistance Agreement No. CR827181-01
                      (Report No. 2003-4-00119, dated September 19, 2003).
                  •   EPA Needs to Develop Measurable Goals for Its State and Tribal Superfund
                      Roles Initiative (Report No. 2001-M8-000002-01337, dated November 17,
                      2000).
                  •   Immediate Action Needed to Address Weaknesses in EPA Efforts to Identify
                      Hazardous Waste Sites in Indian Country (Report No. 2004-P-00003, dated
                      January 30, 2004).

                  To evaluate EPA systems for measuring progress and the status of actions, we
                  interviewed OSWER headquarters staff and regional staff. Using a
                  semi-structured survey, we interviewed staff from the regions with
                  responsibilities for Federally-recognized tribes. These questionnaires were
                  administered orally and regions provided supporting documentation, when
                  requested.




         2
         We requested the most recent data on the number of preliminary assessments and site investigations
performed. However, we did not receive this information before final printing of this report.
         3
          NPL-equivalent sites are those that qualify for the list based on their Hazard Ranking System score but
have not yet been placed on the list.

                                                              5
In addition, we interviewed and obtained documentation from the Tribal
Association on Solid Waste and Emergency Response (TASWER). TASWER is
the current EPA grantee conducting and managing activities designed to produce
the inventory of hazardous waste sites on
tribal lands. We also interviewed NTEC, a          EPA-Tribal Relationships
tribal membership organization, and the                    Evaluated
Inter-Tribal Environmental Council, a tribal   Region 9
membership organization created to service     • Navajo Nation
many tribes in EPA Region 6.                   • Shoshone-Paiute Tribes of the
                                                    Duck Valley Reservation
                                                  • Washoe Tribe of California and
Using a case study approach, we evaluated           Nevada
six EPA-tribal relationships in two EPA
regions (see Figure 1-4). We selected             Region 10
Regions 9 and 10 for our evaluation because       • Coeur d’Alene Tribe
                                                  • Confederated Tribes of the
they had the largest number of tribes and            Colville Reservation
obligated the majority of funding related to      • Suquamish Tribe
Superfund tribal activities, excluding
Region 6. Within each region, we selected          Figure 1-4
three tribes for our case studies. Our goal
was to include a range of working relationships in our sample.

In concert with EPA and NTEC officials (which include Cherokee Nation staff),
we identified seven characteristics of effective working relationships with tribes.
Based on semi-structured surveys of tribal and regional staff (including project
managers, community involvement specialists, and project officers), along with
the examination of related documentation, we determined whether these
characteristics were present. We also identified success factors, obstacles, lessons
learned, and recommendations for improvements.




                                     6
                                Chapter 2
      Important Initiatives to Enhance Tribal Role
        and Relationships Remain Incomplete
          EPA has undertaken three major efforts since 1998 to enhance the tribal role in
          the Superfund program and improve its relationships with the tribes, but those
          initiatives have had limited success. Specifically:

          •   The primary initiative – the development of a 1998 enhancement plan – has
              provided some benefits but it is no longer playing a significant role.
          •   EPA has yet to complete its 1999 action plan in response to a national forum.
          •   An EPA-created tribal association has not met its goals.

          The benefits from these efforts have not been completed or fully realized because
          the Agency is not monitoring their progress and effectiveness or taking necessary
          action when needed. Moreover, as discussed in Chapter 3, incomplete critical
          actions, such as development of a baseline inventory or risk tools, hamper the
          development of a sound strategy for the tribal Superfund program. In turn, the
          degree to which the Superfund program is effectively addressing risks to human
          health and the environment on Indian land, and enhancing tribal participation in
          Superfund, has been impacted.

EPA Has Taken Actions to Enhance Tribal Relationships

          EPA is a Federal leader in its efforts to enhance tribal relationships. In 1984,
          EPA became the first Federal agency to adopt a formal Indian policy. When the
          policy was reaffirmed in 1994, an action agenda was established for strengthening
          tribal operations. This same year, the Agency established the American Indian
          Environmental Office and the Tribal Operations Committee. The American
          Indian Environmental Office is responsible for ensuring the Agency’s trust
          responsibility to tribes is carried out. The mission of the Tribal Operations
          Committee, which includes tribal leaders (the “Tribal Caucus”) and EPA senior
          management, including the American Indian Environmental Office, is to advance
          the protection and improve the conditions of tribal health and the environment in
          Indian country. The Committee provides input into Agency “operational”
          decision-making affecting Indian country.

          Starting in 1998, the Agency undertook three initiatives to further enhance the
          tribal role in the Superfund program: (1) EPA’s March 1998 “Plan to Enhance the
          Roles of States and Tribes in the Superfund Program”; (2) an action plan to
          address tribal issues raised in a 1998 national forum on impediments to tribal
          waste programs, known as the Albuquerque Forum; and (3) establishment of
          TASWER.

                                               7
Enhancement Plan Yields Results, But Benefits Not Fully Realized

          The “Plan to Enhance the Role of States and Tribes in the Superfund Program”
          yielded positive results, ultimately helping regions enhance the tribal role in the
          Superfund Program. The Plan made 35 recommendations to improve the
          involvement of the tribes in the Superfund Program and established 9 pilot
          projects in 6 EPA regions. According to the Agency’s evaluation of the Plan and
          our interviews with regions, the Plan removed barriers and helped regions build
          tribal capacity. For example:

          •   EPA removed unintended regulatory barriers to funding inter-tribal consortia
              and demonstrating eligibility for certain cooperative agreements.
          •   Regions said the pilots enhanced their relationships with tribes, helped resolve
              issues, provided training to tribes, built tribal capacity, and raised an
              awareness of potential Superfund tribal activities.

          The Agency took other actions to make the Plan more effective. It performed a
          formal evaluation of the Plan’s pilot projects to identify lessons learned and
          evaluate effectiveness of the Plan’s recommendations and strategies. This
          evaluation, issued in December 2000, made recommendations for improving Plan
          implementation. In January 2001, the Agency had directed its regions to use the
          Plan as a tool to achieve work sharing arrangements with States and tribes.

          However, despite EPA’s investing of over $3 million in the Plan and performing
          an extensive evaluation, our interviews with regions found that, generally, the
          Plan no longer plays a role in regional relationships with tribes. The Plan’s
          usefulness is limited because the Agency has not developed a specific
          implementation strategy. The Plan includes 17 recommended regional actions for
          providing tribal assistance, including encouraging tribes to build program
          capacity, helping tribes to develop tracking and notification systems, and assisting
          tribes in finding cleanup alternatives for sites that cannot be addressed under
          Superfund. These recommendations are not prioritized or tailored to address
          disparities in regional workloads. At least one region concluded the Plan is not
          “practical,” and another noted the Plan cannot be implemented under “current
          budget realities.” Also, the Agency determined that “key elements” of the Plan
          have not been effectively communicated.

          Further, the Agency does not have meaningful measures to track Plan
          implementation and, thus, is unable to evaluate its progress or effectiveness.
          Specifically, the Agency is not:

          •   Using measurable goals or tracking the cost of Plan implementation, despite
              EPA OIG recommendations in November 2000 to do so.
          •   Systematically monitoring the progress of tribes undertaking new activities, as
              recommended by EPA’s 2000 Plan evaluation.

                                               8
          •   Monitoring the status of four “priority” recommendations critical to
              enhancing the tribal role in the program.
          •   Reporting on the final benefits and lessons learned from all tribal pilot
              projects.

          The lack of goals and measures belies the status of incomplete pilot projects and
          other actions critical to enhancing the tribal role in Superfund. We found that
          important pilot projects, such as those addressing cultural risk factors, were
          incomplete or delayed.

Little Progress Made on Critical Albuquerque Forum Commitments

          In response to a 1998 national tribal forum, EPA identified various actions to
          enhance the tribal role in the Superfund program. In its corresponding 1999
          document, “Response to Recommendations From The National Tribal
          Environmental Council’s February
          10-11, 1998 Albuquerque National                   Critical Actions Pending
          Tribal Forum,” the Agency                            from 1998 Tribal Forum
          established a detailed action plan,        1. Identify and prioritize hazardous waste
          including activities and milestones,          sites.
          to address the recommendations.            2. Incorporate tribal cultural values into
          While the Agency took beneficial              Hazard Ranking System and risk
                                                        assessment guidance.
          actions, such as delivering a training
                                                     3. Identify different mechanisms to clean
          course on working effectively with            up sites.
          tribal governments, EPA did not take       4. Set aside funding to address tribal
          sufficient action on four critical            sites.
          actions (see Figure 2-1). Details on
          each of these four actions follow.         Figure 2-1

          Inventory Needed to Develop Plans and Evaluate Progress

          Although EPA’s 1998 action plan called for development of a tribally-approved
          list of hazardous waste sites by September 1999, and such an inventory is
          required by law, the Agency has not produced an inventory or revised its
          milestones for inventory completion. Unless EPA redirects its efforts, the
          Agency’s current activities to develop an inventory of hazardous waste sites
          impacting tribes will not produce credible, useful, or effective results. In January
          2004, we separately reported on these problems in a flash memorandum. The
          Agency agreed to take action on our recommendations.

          Unique Tribal Use of Resources Not Accounted for by EPA

          The Agency’s methods for screening, assessing, and prioritizing hazardous waste
          sites are based on risk principles that do not specifically account for tribal use of
          natural resources. Due to subsistence lifestyles that involve living close to the
          land, spiritual practices, and other cultural aspects, tribes have multiple exposures

                                                 9
                  that, if not considered, are likely to result in insufficient protection of human
                  health in Indian country. Further, according to a 2002 National Environmental
                  Justice Advisory Committee report, government agencies’ approaches to risk
                  assessment and management fall short of taking into account that affected groups
                  consume and use fish, aquatic plants, and wildlife in different cultural, traditional,
                  religious, historical, economic, and legal contexts than the “average” American.
                  According to one tribal risk assessor, subsistence lifestyles alone may result in 10
                  to 100 times more exposure than suburban lifestyles. Tribes also have culturally-
                  unique exposure pathways, such as sweat lodges4, that may expose members to
                  additional risks. These exposures may make tribal cultural activities unsafe.

                  In its response to the 1998 Forum, EPA agreed to work with tribes to incorporate
                  tribal cultural impacts into the Hazard Ranking System and risk assessment
                  process. However, we found that these efforts have stalled:

                  •    Hazard Ranking System. A primary tribal criticism of the Superfund program
                       has been the exclusion of tribal risks and impacts from guidance for the
                       Superfund Hazard Ranking System, a mathematical scoring system used by
                       EPA to assess relative risk posed by sites and their eligibility for the NPL.
                       Generally, the Hazard Ranking System is based on suburban exposure
                       scenarios, which assume little exposure to the environment.

                  •    Risk Assessment Guidance. Similarly, Superfund risk assessment guidance is
                       seen as flawed because it does not account for tribal cultural uses of natural
                       resources. The risk assessment process plays an important role in the
                       characterization and cleanup of Superfund sites. Risk assessment is used to
                       develop cleanup levels and develop tribal regulatory standards.

                  EPA’s projects to incorporate tribal risks into its risk assessments tools have not
                  been successful in the past, and the Agency’s current grant-funded efforts are
                  unlikely to meet the Agency’s informational needs necessary to modify its risk
                  tools.

                  Since 1998, EPA has funded two pilot projects to develop approaches to
                  incorporate tribal cultural values into its risk assessment tools. However, these
                  pilot projects, involving the Hazard Ranking System and addressing risk
                  assessment, have been incomplete and unsuccessful, due to grant management
                  problems and other obstacles. EPA is currently engaging NTEC and TASWER in
                  further study of tribal risk issues and development of risk models. However, this
                  further study does not specifically address the Hazard Ranking System guidance.




         4
          A sweat lodge is one of the most important Indian rituals, providing physical and spiritual benefits, and is
used for ceremony.

                                                          10
          Additional Mechanisms to Address Tribal Sites Still Needed

         The Agency recognized at the Albuquerque Forum that mechanisms other than
         the Superfund NPL are needed to clean up sites impacting tribes. The Action
         Plan called for the Agency to “evaluate initial [tribal] pilot results in identifying
         mechanisms to achieve environmental cleanup with the intent to implement on a
         wider basis.” An Agency preliminary evaluation of the pilots in December 2000
         identified ways to fund tribes for various aspects of the Superfund program, but
         the purpose of these pilots was not to find alternatives to the NPL to clean up
         sites. According to the Agency’s 2002 draft tribal strategy, the Agency needed to
         develop a strategy to clean up non-NPL sites. Also, while EPA personnel said
         they are developing a Superfund training course for tribes that will address grants
         and other funding avenues, this course was still under development as of the end
         of our field work.

         Funding Set-Aside Not Addressed

         In response to the Albuquerque Forum, EPA agreed to address the need for a
         funding “set-aside” in Superfund for tribes. However, this issue has not been
         addressed. As discussed in Chapter 3, the regional funding allocations for
         pipeline activities (which include tribal Superfund grants) do not consider tribal
         workload. The Agency is considering changing the funding mechanism for tribal
         projects because it does not consider tribal funding needs, leaving regions with
         large numbers of impacted tribes at a disadvantage. No dates have been set for
         initiating, evaluating, or completing this initiative.

Anticipated Benefits from TASWER Not Received

         EPA’s establishment of TASWER has had little success. TASWER has not met
         the goals of its cooperative agreement and, until recently, the Agency has not
         critically evaluated its performance.

         In response to tribal leaders’ requests, EPA in September 1998 entered into a
         cooperative agreement to establish TASWER. The agreement provided
         $3.1 million to TASWER over 5 years to provide a government-to-government
         mechanism through which tribes could be proactively involved in policy
         discussions. TASWER encountered serious problems and, according to the
         Agency, was just beginning to accomplish its workplan goals in 2003,
         approximately 5 years after it was established.

         TASWER has encountered numerous difficulties and has not performed as
         expected. For example, TASWER:

         •   Experienced grant management failures, including awarding a non-
             competitive contract, and paying $500,000 of the $750,000 contract amount to
             the recipient in advance of work performed.

                                          11
         •    Provided misguided information to the Agency on the status of actions.
         •    Had difficulty fulfilling its mission to proactively involve tribes. EPA’s
              Tribal Operations Committee expressed concerns in February 2001 over
              whether TASWER was meeting its objective of soliciting support and
              guidance from tribal governments, and an inter-tribal association of 24
              Federally-recognized tribes notified EPA in November 2001 that TASWER
              had failed to properly represent tribes.
         •    Did not hire sufficient staff to perform program activities.
         •    Had not provided tribal input to the Agency’s baseline inventory of hazardous
              waste sites although it had been managing the tribal effort since July 2000.

         Because of financial management deficiencies, EPA issued a stop work order to
         TASWER on July 3, 2002. Satisfied the deficiencies were corrected, the Agency
         lifted the stop work order on November 26, 2002. The Agency advised us that
         TASWER made major changes and improvements during 2003 and is just
         beginning to accomplish its workplan goals, approximately 5 years after
         TASWER was established. The Agency advised us it is critically looking at
         TASWER’s performance.

Conclusions

         While EPA’s major tribal initiatives have produced positive results, their benefits
         have not been measured or fully realized. Critical actions remain incomplete and
         hamper the development of a sound strategy for the program. The lack of goals
         and measures belies the status of incomplete pilot projects and other actions
         critical to enhancing the tribal role in Superfund. Such measures are critical not
         only for measuring success and progress but for evaluating whether its strategy
         continues to achieve desired results.

         Also, the Agency will not be able to fully consider the interests of tribes in
         identifying, prioritizing, and evaluating hazardous waste sites unless tribal
         cultural resource use is accounted for systematically. Further, if EPA does not
         take action to revise its risk tools, it could undermine its relationships with tribes
         and be at odds with its own Indian Policy, which calls for removing barriers to
         tribal participation in environmental programs. According to its Federal trust
         responsibility, EPA must consider the interests of tribes in conducting its
         activities and ensure its actions protect tribal treaty rights.




                                           12
Recommendations

         We recommend that the Acting Assistant Administrator for Solid Waste and
         Emergency Response:

         2-1      Develop detailed plans for completing critical actions that identify
                  milestones, priorities, and resources, and monitor the status of action
                  plans, report on their progress to regions and tribes, and revise plans as
                  necessary.

         2-2      In concert with development of a tribal strategy, clearly identify Agency
                  responsibilities for modifying risk tools, delineate how decisions to
                  modify risk tools (including the decision to make no changes) impact
                  tribes, determine how barriers can be addressed, and develop a specific
                  plan to monitor and use model research that addresses risk tools.

         2-3      For tribal initiatives, evaluate the Plan pilot projects before authorizing
                  additional pilot projects, and share the benefits and lessons learned with
                  others that may benefit, such as regions, tribes, and States.

         2-4      Before providing additional funds to TASWER, objectively evaluate the
                  benefits and costs of TASWER’s cooperative agreement, along with
                  alternative organizations, such as the NTEC.


Agency Comments and OIG Evaluation

         The Agency has substantially agreed with our findings and recommendations and
         we look forward to its final response, which should include detailed plans for
         completing critical actions, along with milestones for their accomplishment.

         OSWER stated that it believed the OIG’s recommendations for Chapters 2
         through 4 are interrelated and addressed them in a combined response. Its
         response “is intended to address the full intent of the recommendations without
         emphasizing individual components.” Specifically, OSWER stated it intends to
         focus its strategy on several key actions/priorities:

         •     Completing a tribal waste inventory;
         •     Issuing guidance incorporating tribal cultural factors into the Hazard Ranking
               System and Superfund risk assessment processes;
         •     Establishing a forum for regions to share information related to their tribal
               Superfund efforts;
         •     Involving tribes early in the Superfund process, and developing guidance to
               that effect; and
         •     Providing technical support in cases where a site is on tribal land or affects
               traditional tribal cultural factors and life ways.

                                                13
Through increased emphasis, OSWER will finalize its tribal strategy in fiscal
2005. To meet this goal, OSWER will identify, evaluate, and communicate the
program’s current tribal priorities and provide a general outline and timeframe to
accomplish activities to fulfill OIG recommendations.

The Agency stated that efforts to incorporate tribal cultural factors into the
Hazard Ranking System and risk assessment guidance are ongoing. Recently,
OSWER approved a strategy for working with tribes to identify cultural factors it
might define within the Hazard Ranking System guidance to more fairly account
for tribal exposures to site contamination.

Incorporating cultural factors into risk assessment work is a larger project,
according to the Agency. A number of other groups, in addition to OSWER, are
researching this issue relating to specific interests, including EPA’s Office of
Research and Development (through the EPA Tribal Science Council); the Office
of Prevention, Pesticides, and Toxic Substances; TASWER; and several tribes.
EPA’s American Indian Environmental Office is leading an effort to coordinate
across the Agency efforts related to tribal traditional life ways and risk. OSWER
stated it is fully participating in this coordinated effort. As this work progresses,
OSWER commits to addressing the Superfund aspects of the remaining portions
of recommendation 2-2.

The Agency stated that it continues to maintain close oversight of and substantial
involvement in TASWER’s activities. OSWER’s senior program managers will
discuss options for working with various tribal associations to achieve
Superfund’s long-term commitments to tribes. These options include a full
analysis of TASWER, NTEC, and other alternative entities in relationship to their
benefits to tribes nationally.




                                     14
                                                   Chapter 3
                                     EPA Needs to Improve Strategy
                                      for Tribal Superfund Program
                          EPA has not fully developed its tribal strategy in relation to Superfund, even
                          though it initiated the draft strategy in 2002. We believe a key factor for this
                          occurring is that the tribal strategy lacks a implementation plan, including
                          milestones, priorities, targets, and resources, along with corresponding measures
                          to track its progress and effectiveness. Also, strategy completion has been
                          hindered because of little emphasis from top leadership, a lack of clear goals,
                          missing critical information such as an inventory, and EPA regions not being
                          included in its development. In the absence of clear direction, EPA regions have
                          developed divergent regional tribal programs. Consequently, the Agency does
                          not have a sufficient accountability system in place to measure or evaluate its
                          progress in enhancing the tribal role in the Superfund program. This will make it
                          difficult for EPA to meet its responsibility to consult with and protect the interests
                          of tribes when making Superfund decisions, and complete critical actions
                          necessary to fully enhance the tribal role in the Superfund program.

Agency’s Program Accountability System

                          According to the Governmental Accounting Standards Board concept statement,
                          accountability systems for government programs include establishing and
                          achieving program goals; selecting (or rejecting) policy; using adequate
                          processes, procedures, or measures in performing necessary actions; having
                          efficient operations; and spending funds according to an approved budget and
                          legal and regulatory requirements.
                                              S e ttin g G o a ls &
                                                   P rio ritie s
                                                                                        According to the EPA OIG’s guide for
                                                                                        assessing organizational systems, an
                                                                                        organization’s leadership should
                                                                                        provide realistic, verifiable goals. A
                                                                      D e ve lo pin g
                                                                                        strategic planning process should be in
 M e a su rin g                                                       S tra te g ie s   place that links customer-driven goals
  S u cce ss
                                                                                        with well-defined strategies, actions
                                                                                        plans, and performance measurement.
                                                                                        Action plans should include goals that
                                                                                        link long-term strategic goals with
                  T a kin g A c tio n s
                                                                                        day-to-day activities of management
                                                                                        and staff. A process should be
Figure 3-1: Model for Strategic Planning                                                established for establishing clear
Source Nature Conservancy                                                               priorities.


                                                                      15
          EPA’s programmatic goals, objectives, measures, and strategies are identified in
          its 2003-2008 Strategic Plan. In 2002, OSWER developed a Tribal Program
          Strategy for 2003-2006 (draft) that includes its Superfund program. This strategy
          includes a goal and associated measures.

Program Direction Unclear

          Agency efforts to develop a strategy for the Tribal Superfund Program have not
          reached fruition, resulting in unclear program direction. The Agency’s 1998
          “Plan to Enhance the Role of States and Tribes in the Superfund Program” no
          longer plays a significant role in regional efforts to involve tribes. The draft
          OSWER Tribal Program Strategy has not been provided to tribes and regions as
          of September 2003.

          The lack of clear program direction is evidenced by the fact only two regions told
          us they have a specific strategy for the Superfund tribal program. Regions
          indicated there is “a disconnect” between regions and headquarters and a general
          lack of headquarters direction. Further, it appears there is little top management
          emphasis on completing and implementing the Superfund tribal strategy.
          Although a meeting was held in June 2003 to revise the strategy, program
          officials said very little has been accomplished since that time.

          Without a clear goal and corresponding strategy, priorities, milestones, and
          resources, it will be difficult for the Agency to (1) meet its responsibility to
          consult with and protect the interests of tribes when making Superfund decisions,
          and (2) complete critical initiatives.

Draft Strategy Missing Key Components

          The Agency’s draft tribal strategy (2003-2006) for its Superfund program is
          missing key components that we believe are instrumental to its future success.
          Successful implementation will also be dependent upon development of an
          implementation plan and stakeholder involvement.

          Draft Strategy Lacks Clear Superfund Goal

          According to the draft tribal strategy, OSWER’s Superfund goal is “continued
          emphasis on increasing the number of impacted Indian tribes participating in the
          Superfund program....” While this goal addresses, to a limited extent, the
          outcome of EPA activities (EPA-tribal relationship), it does not address an
          environmental outcome, such as Superfund site cleanup or natural resources
          returned to tribes. Strategic plans should include a set of outcome-related
          strategic goals that indicate the results a strategy is intended to achieve. The
          Agency’s Superfund tribal goal of emphasizing increasing tribal participation is
          not verifiable or measurable; the Agency has yet to define how it will determine
          when this goal is met or how each region will contribute to its attainment.

                                          16
Key Policies Not Defined

The Agency has not established clear policies that define the scope of its
Superfund tribal activities, which is needed to set priorities and allocate resources.
Further, program policies and criteria are needed for uniform national
implementation, to ensure transparency and equity. To illustrate:

•   Core grant criteria. The Agency has not established criteria for awarding
    core program cooperative agreements to tribes. Such agreements provide
    funding (“core grants”) for activities
    that support a tribe’s ability to         “The Agency will take affirmative steps
    implement CERCLA. Agency                  to encourage and assist tribes in
    guidance and policy, such as the          assuming regulatory and program
                                              management responsibilities for
    Agency’s Superfund Program                reservation lands.”
    Implementation Manual and EPA’s                               -EPA’s Indian Policy
    Indian Policy, note the importance of
    core grants. However, the Agency
                                            Figure 3-2
    has not established:

    0 Minimum criteria for funding program development under core grants.
    0 A policy that addresses how long core grants should continue.
    0 Priorities for issuing core grants.
    The lack of a clear policy for providing tribal core grants results in the
    appearance that core grants are not being offered on an equitable or priority
    basis nationwide, and tribes have in fact expressed concerns about disparities.
    For example, in a letter to Region 10 in March 2001, the Confederated Tribes
    of the Colville Reservation noted that the Region has provided every State in
    Region 10 a core grant for as long as 10 years but has never issued a core
    grant to a tribe (the Region subsequently issued a core grant to the Colville
    Tribes). Other regions (1, 2, 6, and 9) have issued core grants to tribes.

•   Trust responsibility. The Agency has not defined its trust responsibilities
    relative to the Superfund program and, thus, has not established criteria for
    how its Superfund program activities will consider tribal interests and protect
    tribal rights arising from treaties, statutes, and executive orders. While the
    Agency has acknowledged the need to discuss treaty rights in relation to the
    Superfund program on a national basis, to the best of our knowledge, this
    discussion has not occurred. As one tribal staff member observed, EPA staff
    do not always consider the impacts to critical tribal resources.

•   Sites impacting tribes. There is not a common definition of sites impacting
    tribes, although this definition is critical for determining the scope of EPA’s
    activities. For example, Region 2 defined sites impacting tribes as those with
    contamination on or contiguous to tribal lands, while Region 10 stated there is

                                  17
             no clear definition. Complex Indian land and treaty rights issues complicate
             the determination of whether or not sites impact tribes, including sites not
             actually on a reservation.

         Strategy Development Incomplete

         In addition to insufficient goals and policies, we noted other issues that resulted in
         strategy development being incomplete:

         •   While the strategy includes many crucial activities, such as developing a
             baseline inventory and modifying guidance for the Superfund Hazard Ranking
             System, it does not specify priorities for these activities, which is necessary to
             ensure limited resources are used for the most important efforts first.

         •   EPA does not have a detailed action plan for its Superfund tribal strategy,
             including milestones. Further, the regional role in the national strategy has
             not been identified, and regions have not been consulted in draft strategy
             development.

         •   Since EPA has yet to develop a baseline inventory of hazardous waste sites
             impacting tribes, the full extent of the problem (number and type of sites, site
             status, impacted tribes) that the strategy is to address is unknown.

         •   Although the strategy acknowledges tribal needs are growing and budget
             projections made funding increases for tribes problematic, necessary
             resources to carry out the strategy have not been identified.

         •   Although EPA’s tribal caucus participated in the strategy development, EPA
             needs to consult with tribes before the strategy is finalized.

Performance Measures Needed

         Performance measures for the Superfund tribal program have been eliminated
         and, according to EPA personnel, are being redesigned in light of changes to
         EPA’s Superfund cleanup program and EPA’s national strategy. Good
         performance goals and measures and high-quality data supporting them are
         fundamental to strategic planning, budgeting, and accountability processes.




                                           18
The Agency had developed                          Fiscal 2002/2003 Superfund
four performance measures                        Tribal Performance Measures
(see Figure 3-3) that indicate the         1. Superfund assessments conducted at
extent to which the Superfund                 sites of concern to tribes.
program is active at sites of concern      2. Superfund dollars provided for building
                                              tribal capacity.
to tribes and the level                    3. Tribes supported by a Superfund
of involvement of those tribes.               cooperative agreement.
However, these measures were only          4. Percentage of Superfund sites that are of
                                              concern to tribes where a tribe is actively
used from 2001 to 2003. If those              involved.
measure are to be used in the future,
                                          Figure 3-3: Source: Superfund/Oil Program
they can be more effective if they:       Implementation Manual FY 02/03, Appendix J.

•   Include national and regional target measures or goals since existing measures
    do not include target measures or goals; thus, regions have not been required
    to set target goals that were consistent with national goals.
•   Measure the effectiveness of relationships with tribes.
•   Address environmental outcomes, such as natural resources returned to tribes.

Without more informative measures, the Agency will not be able to measure the
effectiveness of its program and progress toward its goal, or hold managers
accountable for performance. Further, it will not be able to determine the extent
to which regional actions are contributing to its goals and whether regional goals
are aligned with national goals. We believe there are several reasons why the
strategy, goals, and performance measures are not fully developed and effective,
including:

•   Need for direction. No one was clearly accountable for the Superfund tribal
    program results; although there is a Superfund tribal coordinator, the
    coordinator said this structure is not conducive to a well-coordinated effort.
•   Potential conflict with milestones. Full tribal involvement can add time to
    studies, delaying completion of project milestones, and meeting milestones is
    a key and readily identifiable factor for measuring success.
•   Formidable coordination challenges. EPA has a formidable challenge
    trying to coordinate with over 560 Federally-recognized tribes.
•   Insufficient information. EPA lacks critical information needed to develop a
    clear strategy with associated priorities, such as a baseline inventory of sites.
•   Funding. Management is reluctant to set performance measures for activities
    that may not be fully funded.
•   Measurement difficulties. Measuring outcomes, such as the degree to which
    the Agency has enhanced the tribal role in the Superfund program, is difficult,
    and to do so EPA needs to establish measurement criteria and create a
    mechanism for collecting corresponding data.




                                 19
Divergent Regional Programs Developed in Absence of
Clear Direction

          We believe the lack of clear program direction was a prime factor in resultant
          divergent regional programs that operated under different policies, procedures,
          and priorities. Other factors included the wide variations in regional tribal
          workload. Moreover, Superfund funding allocations to EPA regions do not
          consider tribal program priorities or workloads, which vary substantially.

          Disparities in Tribal Funding by Region Existed

          Based on our interviews with tribes and regions, there was insufficient funding
          for tribal consultation in four regions reviewed. Three of these regions accounted
          for the majority of tribes impacted by NPL (or equivalent) sites. For example:

          •   In Region 5, insufficient funding and responsible party negotiations delayed
              data collection efforts needed to protect the Tribe’s treaty-granted resource
              use. According to the 2003 Superfund pilot project report prepared by the
              Leech Lake Band of the Ojibwe, data needed to fully characterize human
              health and ecological risks had not been collected due to a lack of funding.
              According to the Tribe, during the delays, residents have been exposed to
              contaminated soil and consumed contaminated fish.

          •   Region 8 noted proposed funding cuts adversely impacted accuracy of a risk
              assessment that considered cultural uses of the riparian zone and threatened a
              tribe’s participation in the development of the site record of decision; tribal
              participation is considered crucial to reaching a workable solution.

          •   Region 9 said additional funding is needed for tribes working on Superfund
              NPL sites. Moreover, two of the three tribes we interviewed in Region 9
              indicated insufficient funding impacts their ability to evaluate unique risks.

          •   Region 10 stated that funding for tribes impacted by Superfund NPL sites is
              about half of what is needed.

          Regional Tribal Workload Varies

          The nine regions we interviewed have wide variations in their tribal workloads.
          For example, Regions 1, 2, 4, and 7 each support 10 tribes or less; Region 9
          supports 142 tribes, including the Navajo Nation that has substantial acreage. The
          regions also have large variances in the number of NPL sites (or equivalent) on or
          impacting tribes, along with the number of impacted tribes. Regions 4 and 7 have
          no tribes impacted by these priority sites, while Region 10 has 25 sites that impact
          19 identified tribes. Regions 6, 9, and 10 have tribes leading cleanups, while no
          other regions reported tribal lead cleanups.


                                           20
Funding Allocations Not Based on Tribal Priorities or Workload

Funding allocations for the Superfund tribal program are not strategically
directed. We believe this contributes to divergent regional programs and the
inability to fund certain critical consultation activities. The Superfund program
provides regions funding for tribal activities using three “advices of allowance”:

•   Pipeline funding: This major funding source for tribal activities funds
    pre-construction activities, including State and tribal agreements, information
    management, and site-specific work (such as that for site assessment,
    investigations and feasibility studies).

•   Removal funding: This provides funding for time critical removal actions.

•   Remedial funding: This provides funding for remedial actions.

Resources could not be directed to strategic priorities because, as noted, strategic
priorities have not been developed for the Superfund tribal program. Moreover,
our comparison of regional
funding to NPL and equivalent                   Regional Funding Compared to
sites indicates funding does not            NPL-Eligible Sites and Impacted Tribes
                                                (dollars obligated in millions for
appear to be correlated to priority              fiscal years 1996 through 2003)
site workload. We compared
                                                                   NPL+        Tribes
regional tribal workloads based on
                                          Region Funding           Sites     Impacted
the number of NPL or NPL-
eligible sites that regions stated            1         $0.04         3            3
impacted or were of concern to                2          1.86         2            1
tribes because, by definition, these
                                              4          0.13         0            0
sites represent some risk. As
shown on Figure 3-4, Region 6,                5          0.88        14          16
which has 4 priority sites that               6          8.01         4            3
impact 3 tribes, obligated about
$8 million while Regions 5 and                7          0.00         0            0
10, which have a total of 39                  8          2.70         1            1
priority sites impacting 35 tribes,
                                              9          5.12         6            7
obligated about 60 percent of this
amount – about $4.7 million.                 10          3.89        25          19

                                            Figure 3-4. Source: EPA data
One apparent reason for this
disparity is that headquarters’
pipeline allocations to regions do not consider tribal workload. Funding is
distributed to regions based on a formula that considers historical obligations and
site-specific workload. Agency staff told us there is “a strong culture of tribal
support.” However, because of its trust responsibilities, EPA is likely to have
additional workload requirements for tribal sites. In executing its duty to protect


                                  21
tribal rights, EPA must be able to accurately assess and protect unique tribal
interests (such as sacred sites) and specific treaty rights.

Another reason for regional funding disparities appears to be differences in
regional tribal programs and priorities. Unlike other regions, Region 6 created a
tribal consortium that performed about 125 preliminary site assessments (or
investigations) for over 30 member tribes from 1996 to 2002. The Region
provided this consortium approximately $4.1 million during that period. On the
other hand, Region 10, which obligated about $2.8 million during the same
period, put limits on funding for tribes. The Region, which is responsible for
19 tribes impacted by 25 NPL sites, limited tribal funding to about $30,000 per
year per tribe for tribes impacted by these sites. The Region acknowledged this
amount was about half the amount needed.

Agency staff told us that a work group is considering a new base allocation
formula to make fund distribution more equitable.

Regions Develop Divergent Programs

Regions have taken varying approaches to program implementation, depending
on such factors as available resources, management emphasis, number of tribes,
and the magnitude of waste issues. To illustrate:

•   To determine the extent of hazardous waste sites impacting tribes, regions
    have undertaken various efforts. For example, Region 8 surveyed all of its 26
    tribes in the late 1990s; Region 9 has not surveyed its 142 tribes; and Region
    10 only surveyed tribes in Washington State.

•   Regions 8 and 10 have developed procedures for consulting with tribes; the
    other regions told us they have not.

•   Regions have different strategies for working with tribes. As discussed,
    Region 6 created a tribal consortium providing services for 32 member tribes.
    Region 8 funded development of emergency response plans for all interested
    tribes under core program agreements, while Region 9, which had nearly six
    times as many tribes, said it only provides funding to large tribes with the
    need for a Superfund program (although it is investigating ways to identify
    emergency response planning needs).

•   Regions have differing definitions of success for their Superfund tribal
    programs. For example, Region 8 defines success as the effectiveness of its
    relationship with the tribes; Region 2 defines success as what the tribes had
    successfully accomplished and implemented; and Region 6, which had 66
    tribes, told us it has no one measure of success.



                                 22
         •    As previously, noted regions have different policies for issuing core grants,
              which are critical to the development of tribal program capabilities.

         Tools, Practices, and Lessons Learned Need to Be Shared

         The Agency does not have an ongoing forum to share tools, best practices, and
         lessons learned by regions and others involved in efforts to enhance tribal
         Superfund programs and also to develop more consistency amongst regions.
         During our interviews, the regions identified the following tools that enhanced
         their relationships with tribes:

         •    Consultation Procedures. Region 10 developed “guiding principles” for
              consulting with tribes. NTEC has observed that consultation procedures,
              tailored for each tribe, enable government to reach out to tribes.

         •    Memoranda of Agreement. Region 10 is in the process of establishing
              memoranda of agreement with its tribes, to help eliminate conflicts and build
              trust. Region 9 has a memorandum with one of its tribes, which it stated
              improved trust.

         •    Training for EPA staff. EPA’s course, “Working Effectively With Tribal
              Governments,” is identified as a good tool for enhancing regional
              relationships, but one region indicated more of this training is needed.

         •    Tribal Evaluations. Region 1 sends evaluation questionnaires to tribes on
              regional programs and the Region indicated it has received useful feedback.

         •    Tribal Consortia. As previously noted, Region 6 established an Inter-Tribal
              Environmental Council to create a cost-effective mechanism to perform site
              assessments. However, this approach may not be effective in some instances
              due to competing priorities and historic conflicts between tribes.

         The Agency should share its tools, best practices, and lessons learned at least
         annually in a forum conducive to the transfer of knowledge. Such a forum would
         help regions build on each other’s successful practices and help eliminate
         ineffective practices and associated resources.

Conclusions

         EPA is a Federal leader in its efforts to enhance tribal relationships; it was the
         first Federal agency to adopt a formal Indian policy. It has also established an
         American Indian Environmental Office and a Tribal Operations Committee. In
         spite of its efforts, Agency leadership has yet to establish a clear direction for the
         future of the Superfund tribal program, resulting in divergent regional programs
         whose effectiveness is not being objectively measured or evaluated. While
         OSWER developed a tribal strategy in 2002, it has not been deployed. Further,

                                           23
        there are significant limitations in its design, and the Agency has not designed a
        system to measure the effectiveness of its strategy and, ultimately, its Superfund
        tribal program. The Agency’s progress in enhancing the tribal role in the
        Superfund program and meeting its trust responsibilities will continue to be
        challenged until leadership provides a clear plan that addresses the limitations in
        its strategy and accountability system.

Recommendations

        We recommend that the Acting Assistant Administrator for Solid Waste and
        Emergency Response take a leadership role in developing a Superfund tribal
        strategy, policies, and performance measures and in sharing best practices.
        Specifically:

        3-1    With regional and tribal input, fully develop a Superfund tribal strategy
               that includes:

               •   Clear goals that include regional activities.
               •   Detailed action plans (as identified in our Chapter 2 recommendation).
               •   Policies that define the scope of Superfund activities.
               •   Priorities for conducting activities.
               •   Identification and action on data gaps that have constrained the strategy.
               •   Resources required to implement the strategy.
               •   Periodic refinement based on new data (such as the baseline inventory).

        3-2    In further defining tribal Superfund policies, specifically identify:

               • Criteria for issuing and continuing tribal core program agreements.
               • Agency responsibilities relative to trust responsibilities and treaty rights
                 as they impact the Superfund tribal program.
               • Criteria for defining sites impacting tribes.

        3-3    Further develop performance measures that (1) include national and
               regional targets, (2) measure effectiveness of relationships with tribes, and
               (3) address environmental outcomes.

        3-4    Better coordinate tribal Superfund efforts to ensure that funding is
               appropriately distributed and tribes in all regions get a reasonably close
               level of attention. At a minimum, ensure allocations consider tribal
               program priorities, address varying workloads among regions, and are
               adequate to meet EPA’s Federal trust responsibility.

        3-5    Develop a forum, to be held at least annually, for regions to share tools,
               best practices, and lessons learned related to their tribal Superfund efforts.



                                          24
Agency Comments and OIG Evaluation

         The Agency proposed several actions which generally meet the intent of our
         recommendations. We look forward to more specific plans to carry out these
         actions, to include milestones for issuing guidance.

         OSWER identified priorities for its tribal strategy and stated it would finalize the
         strategy in fiscal 2005. It noted that OIG recommendations focus on the actions
         needed to fully implement and evaluate the effectiveness of the program’s
         strategy over the long term. To accomplish this, OSWER stated, the program
         must better define the role of regions within the strategy (and create consistency
         with regional strategies), and work closely with tribes to shape the strategy as it is
         developed and consult with tribes in developing specific milestones.

         In addition, another priority for OSWER is to issue guidance that facilitates
         working effectively with tribes early in, and throughout, the Superfund process as
         it is implemented at specific sites. OSWER’s goal is to provide guidance that
         explains the Federal trust responsibility, describes how to adequately consult with
         tribes at particular sites, and presents examples of the most effective practices
         employed by regions. This guidance may also address criteria for tribal core
         program agreements. OSWER hopes to develop milestones early next year.

         While the Agency is considering several performance measures, it has not fully
         addressed our recommendation to further develop performance measures.
         OSWER stated it recognizes the difficulties associated with establishing tribal
         program performance measures and is seriously considering several measures.
         OSWER stated it will track Government Performance and Results Act measures
         for tribal sites.

         OSWER stated that one of its priorities is to provide technical support for sites on
         tribal land or affecting tribal interests. OSWER stated that incorporating the
         technical support priority into the tribal strategy will enable it to better consider
         funding allocations among regions and varying regional workloads. Also,
         OSWER stated it intends to establish a forum for regional discussions of tribal
         issues and lessons learned beginning in the fall of 2004.

         We anticipate more details on how it plans to develop these measures and
         establish targets as part of its final response.




                                               25
26
                                  Chapter 4
              Tribal Relationships Beneficial
         But Guidance Can Improve Consultation
           Case studies of six tribes showed that EPA can improve its working relationships
           with tribes. These case studies showed that none of the EPA-tribal relationships
           exhibited all seven characteristics we identified as being needed for good working
           relationships. By design, our case studies included relationships with varying
           levels of tribal satisfaction – from “a compromise” to “excellent.” These
           relationships have changed over time, with some improving and others becoming
           more strained. Typically, tribes initiated relationships with EPA. The stronger
           and more effective relationships exhibited four important characteristics:

           •   Frequent and timely communication.
           •   Appropriate information sharing.
           •   Addressing issues raised by tribes.
           •   Operating in a government-to-government relationship.

           Tribal and EPA staff also indicated good interpersonal relationships and funding
           contributed to successful relationships. There were various reasons for conflicts
           in EPA-tribal relationships, including varying expectations of roles and
           responsibilities, differences in views on acceptable project actions and outcomes,
           unclear consultation procedures, and a lack of transparency of EPA’s Superfund
           process. Successful relationships should be pursued since they can decrease both
           the time and resources necessary for investigation, provide access to tribal
           expertise and information, and encourage tribal participation in mitigation.
           Ultimately, successful partnerships create stronger, more effective decisions and
           enable EPA to provide for better human health and environment on tribal lands.

Tribal Partnerships Critical to Strategy, Trust Responsibilities

           EPA’s partnerships with tribes are important to both the achievement of EPA’s
           national goals and fulfillment of its trust responsibility to tribes. Tribal
           partnerships are different than those with States or others because tribes are
           sovereign nations. EPA’s role is critical, too, in protecting the health of millions
           of Indians and non-Indians residing in Indian country.

           According to the Agency's 2003-2008 Strategic Plan, the Agency's partnerships
           with tribes (and States) is a “cross-goal” strategy that plays a critical role in the
           accomplishment of all of the Agency's goals, including its goals to clean up and
           restore contaminated sites. The Agency’s strategy also acknowledges that tribal
           cultural survival depends on the protection of their tribal homelands.


                                             27
              According to its trust responsibility, EPA must consult with and consider the
              interests of tribes in conducting its activities and ensure its actions protect tribal
              treaty rights. The Federal Government’s general trust responsibility arises from
              Indian treaties, statutes, executive orders,
              and historical relations between the
                                                                “EPA fulfills its cleanup and waste
              United States and Indian tribes. The U.S.         management responsibilities on
              Supreme Court has noted that the Federal          tribal lands by acknowledging tribal
              government, as trustee, is “charged with          sovereignty and recognizing tribal
              moral obligations of the highest                  governments as being the most
                                                                appropriate authorities for setting
              responsibility and trust.”                        standards, making policy decisions,
                                                               and managing programs consistent
              Tribal sovereignty is the right of tribes to     with Agency standards and
              exercise self-determination and the right        regulations.”
              to self-government, unless these powers                        -EPA’s 2003 Strategy
              have been modified by treaties or an act
              of Congress. Tribes have the authority to,       Figure 4-1
              among other things, assert jurisdiction
              over the people and their land, define their tribal membership criteria, and create
              and enforce legislation. Because tribes are sovereign, EPA must honor a direct
              government-to-government relationship with tribes. Consequently, no decisions
              about tribal lands, resources, and people should be made without consulting with
              the tribal government.

More Effective Tribal Relationships Associated with Key Features

             Review of EPA’s relationships with selected tribes indicated that the more
             effective relationships exhibited certain key features, such as frequent
             communication and information sharing. For our review, we focused on case
             studies of six EPA-tribal relationships, and included relationships with varying
             levels of tribal satisfaction – from “a compromise” to “excellent.” These
                                       relationships have changed over time, sometimes
   EPA-Tribal Relationships            improving and other times becoming more strained. The
          Evaluated                    six tribes are shown in Figure 4-2; additional details on
                                       their selection are in Chapter 1.
Region 9
• Navajo Nation
• Shoshone-Paiute Tribes of the       In concert with EPA officials, we identified seven
  Duck Valley Reservation             characteristics of effective working relationships with
• Washoe Tribe of California          tribes. Based on surveys of regional and tribal staff, along
  and Nevada                          with the examination of related documentation, we
Region 10                             determined whether these characteristics are present. It
• Coeur d’Alene Tribe                 should be noted that the tribes and EPA regions did not
• Confederated Tribes of the          always agree on whether a certain characteristic is in place,
  Colville Reservation
• Suquamish Tribe
                                      which resulted in a non-specific response. As shown in
                                      Figure 4-3, none of the EPA-tribal relationships exhibited
                                      all of the characteristics of good working relationships,
Figure 4-2


                                                 28
                   although Region 10's relationship with the Suquamish and Coeur d’Alene tribes
                   and Region 9's relationship with the Shoshone-Paiute Tribes exhibit five of the
                   seven characteristics.


                                                                                 Tribe

                                                             Coeur               Shoshone
                  Characteristic                  Navajo    d’Alene   Colville    Paiute  Suquamish1 Washoe

Proactive efforts at project inception              No          No       No           No                     No
(EPA initiates contact)

Government-to-government dealings                               Yes                   Yes      Yes          Yes

Communication “early and often”                    Yes*         Yes                   Yes*     Yes
(EPA communications begin upon release or
threat discovery)

Sharing information appropriately with tribes                   Yes                            Yes

Addressing issues raised by tribes                              Yes      No           Yes*     Yes
(with complete and prompt responses)

Written agreements that specify clear roles                                           Yes
and responsibilities

Establishing mutual trust                                       Yes                   Yes      Yes

Figure 4-3: Yes* = Qualified yes; communication was deficient earlier.
            Blank entries represent instances with incomplete, inconclusive, or only partially observed detail. For
            example, we concluded the written agreement characteristic was partially observed for the Navajo
            Nation because a project management work plan that detailed respective roles and responsibilities was
            not developed until after a communication breakdown.
             1
                 Responses address relationship for Eagle Harbor-Wyckoff site only.



                   Our evaluation of these characteristics and their implementation for these six
                   cases disclosed that:

                   •    Generally, EPA is not proactive in engaging tribes, particularly at project
                        inception. Conversely, tribes have made extensive efforts to engage EPA in
                        site assessment, study, and cleanup.

                   •    Four factors related to relationships are leading indicators of successful EPA-
                        tribal relationships: (1) frequent, timely communication; (2) appropriate
                        information sharing; (3) addressing issues raised by tribes; and (4) operating
                        in a government-to-government relationship. Relationships that exhibit these
                        characteristics also tend to have a strong degree of mutual trust.

                   •    Sufficient funding for tribal engagement is also cited as an important issue of
                        concern.

                   Details on these points follow.

                                                           29
               Tribes Are Impetus for EPA Involvement

               In nearly every case, tribes are the impetus for EPA’s involvement in the site.
               Tribes spent years, and in one case decades, attempting to get EPA to address
               contamination problems. To illustrate:

               •   In 1997, the Washoe Tribe approached EPA Region 9 for assistance because it
                   believed the State of California’s cleanup actions for the Leviathan Mine were
                   inadequate and the State had allowed unpermitted contaminated discharges
                   into the creek system. The tribal staff stated involving EPA had been an
                   arduous process. Region 9 stated that, after meeting with the Tribe, it took
                   immediate actions to collect information and conducted extensive public
                   outreach to gauge public support for listing the site on the NPL. The Region
                   subsequently listed the mine on the Superfund NPL in 2000 and initiated
                   actions to clean up the site.

               •   In 1991, the Coeur d’Alene Tribe began studies evaluating the effect of metals
                   contamination in the Coeur d’Alene River Basin, an area impacted by the
                   Bunker Hill NPL site in Idaho but not part of the remediation effort. For
                   many years, the Tribe urged EPA to expand its Bunker Hill study and
                   remediation efforts to include the basin. By the time EPA Region 10 began its
                   remedial investigation of the basin in 1998, the Tribe had collected 7 years of
                   data and conducted much of the investigative work.

               •       The Shoshone-Paiute Tribes have been involved with the Rio Tinto Mine,
                       located in northeastern Nevada, for decades, raising concerns over violation of
                       the Clean Water Act and independently performing several studies. In
                       response to tribal concerns, EPA Region 9 conducted inspections and
                                                            assessments. In 1995, the Region
                                                            determined that the site was eligible for
                                                            the NPL and, with tribal consent,
                                                            deferred oversight to the State of
                                                            Nevada. In 1999, the Tribes informed
                                                            EPA that the State had fallen short in its
                                                            oversight role and requested EPA to
                                                            assume oversight responsibilities. In
                                                            2000, EPA again proposed to list the site
                                                            but postponed over objections from
                                                            Nevada. Tribal participation ultimately
                                                            resulted in a November 2002
                                                            memorandum of agreement between the
                                                            State, Tribes, and EPA that provided for
Figure 4-4 - Rio Tinto Mine Tailing Pond (OIG Photo)        EPA and tribal review of site
                                                            characterization and remedial
                                                            alternatives analysis.


                                                 30
•   In the late 1980s, the Confederated Tribes of the Colville Reservation became
    aware of problems related to water quality and contaminated sediments in
    Lake Roosevelt, part of the Upper Columbia River, in the State of
    Washington. During the 1990s, the Tribes took a leadership role in
    investigating Lake Roosevelt’s water quality and were a driving force in
    numerous studies of fish and sediment contamination. In August 1999, “as a
    last resort,” the Tribes petitioned EPA Region 10 to conduct an assessment of
    the Upper Columbia River. As a result, in 2003, Region 10 finalized an
    expanded site investigation and determined that the site was eligible for the
    NPL.

The tribes’ experiences in engaging EPA in assessment and study likely
contributed to the tone set for the future EPA-tribal relationship. For example,
the Shoshone-Paiute Tribes, whom requested EPA to oversee the State’s cleanup
of the Rio Tinto Mine site several times, are concerned that EPA staff have lacked
independence from responsible parties.

However, we also observed that good relationships could develop once EPA
became fully engaged, as was the case with the Suquamish Tribe. The Tribe has
been aware of activities and issues associated with the Wyckoff-Eagle Harbor
NPL site in the Puget Sound area (Washington State) since the 1980s. Although
the Tribe attempted to enter into a cooperative agreement with EPA in 1991,
tribal participation was limited and sporadic until 1998, when EPA allowed a
deviation from grant
regulations and entered into a
support agency cooperative
agreement. Currently, both
EPA and Tribal officials said
they have an excellent
working relationship on the
Wyckoff-Eagle Harbor site.
In a 2002 letter to EPA, the
Tribal Chairman lauded EPA
project managers for
developing a “positive
governmental working
relationship” and for
implementing actions that        Figure 4-5 -A sheet pile wall, right, contains contamin-
supported the protection and ation impacting the Suquamish Tribe from the Wyckoff-
enhancement of Tribal trust Eagle Harbor site (OIG Photo)
and cultural resources.




                                   31
    Relationship Characteristics Key Indicators of Success

    In our view, four characteristics are key determinants to whether the EPA-tribal
    relationship is successful: (1) frequent, timely communication; (2) appropriate
    information sharing; (3) addressing issues raised by tribes; and (4) operating in a
    government-to-government relationship.
    A fifth characteristic, “mutual trust,” is
    related. The “excellent” Suquamish-             “I believe that open communication
                                                    promotes a better understanding of
    Region 10 relationship for the Eagle            Navajo Nation needs, which promotes
    Harbor-Wyckoff site (2003) exhibited            a true partnership.”
    these characteristics. The Tribe                  - Letter from Executive Director of
                                                     Navajo Nation EPA to Region 9, June
    observed that successful relationships          2001
    are based, in part, on EPA staff
    understanding rights and resources             Figure 4-6
    reserved by the tribe and working with
    the tribe on a governmental basis. In particular, the importance of good
    interpersonal relationships has been noted. In various instances, insufficient
    communication practices led to conflicts. For example:

    •   While EPA described its relationship with the Washoe Tribe as good, the
        Tribe said the relationship has endured some problems, such as with
        information sharing, response to tribal input, and consultation in decision
        making. For example, the relationship had been adversely impacted by EPA’s
        lack of a formal response to tribal technical reviews of a site management plan
        and early response
        action work plan (see
                                     “The [Washoe] Tribe certainly does not want to impede
        Figure 4-7).                 efficient cleanup of the contamination from Leviathan Mine,
        Consequently, the            but it is difficult for the Tribe to support a process which is
        Tribe concluded “true”       not responsive to the Tribe’s comments and which is not
                                     inclusive of the Tribe at critical developmental stages. Until
        consultation does not        the Tribe, as well as other Trustees, have been afforded an
        exist. While                 adequate opportunity to provide input and to receive
                                     answers to questions...the Tribe objects to the development
        recognizing EPA has          of the Early Response Actions Work Plan.”
        made improvements,                                       -Letter from Washoe Tribal Chairman
        tribal staff stated its                                               to Region 9, March 2001
        partnership should be
        better.                     Figure 4-7


    •   In response to a 1993 Congressional hearing requested by the Navajo Nation,
        EPA Region 9 started its work on the abandoned uranium mines project. In
        late 1999, there was a serious breakdown in communications between Region
        9 and the Navajo Nation over the scope and results of a water data survey.
        The failure to fully engage the Navajo Nation resulted in work stoppage,
        which was costly and time-consuming.

•       Although the Shoshone-Paiutes currently judged their working relationship
        with EPA as good, tribal staff stated EPA has not been responsive to tribal

                                          32
            concerns in the past. They said EPA did not share information or take the
            Tribes’ suggestions seriously, and at one point there was no consultation.

          Funding Also Key

          All the tribes we interviewed stated that funding is critical to their participation.
          One tribe observed that inadequate funding is problematic not only because a
          tribe cannot fully participate, but because concerns not identified may be
          interpreted as tribal concurrence. As detailed in Chapter 2, tribes tend to have
          disproportionate risks because of their increased exposures to natural resources.
          Without knowledge of these risks, EPA cannot fully consider tribal interests and
          protect tribal resources, as required by its Federal trust responsibility.

          The experiences of the Suquamish Tribe show a funding impact. The Tribe’s
          fishery rights were adversely impacted by contamination from the Wyckoff-Eagle
          Harbor NPL site. The Tribe had been aware of issues associated with the site
          since the 1980s. Although the Tribe attempted to enter into a cooperative
          agreement with Region 10 in 1991, tribal participation was limited and sporadic
          until 1998, when EPA allowed a deviation from grant regulations and entered into
          a support agency cooperative agreement with the Tribe. Region 10 noted that the
          Tribe has been an effective participant at the site.

          However, tribal participation at other sites has been adversely impacted by a lack
          funding. The Washoe Tribe told us that EPA funding is insufficient to hire staff
          with relevant technical expertise; EPA later told us more funding was available
          for the tribe. Further, the Shoshone-Paiute Tribes indicated a lack of funding
          impacted their ability to perform a cultural risk assessment and develop a
          community involvement plan. It also impacted the Tribes’ ability to evaluate the
          characterization of ground water, surface water, drinking water, and sediments.

          The Navajo Nation stated EPA funding has declined drastically. As a result, there
          are fewer personnel, less training, fewer assessments of sites, and the
          overwhelming threat that “next year” funds will be cut. It noted that funding
          reductions will have a detrimental impact on whether cleanups will occur in
          Indian country.

Differences in EPA and Tribal Expectations Create Obstacles to
Effective Relationships

          Various expectations of roles and responsibilities often caused conflicts and
          obstacles during the course of EPA-tribal relationships. Differences in views of
          acceptable project outcomes, the lack of transparency of EPA’s process, and the
          impact of tribal consultation on timeliness were also cited as concerns.




                                            33
Relationship Roles, Responsibilities, and Processes Often Unclear

Unclear and varying expectations for key aspects of EPA-tribal relationships
contributed to conflicts. Our evaluation of the three tribal relationships evaluated
in Region 9 showed a tribal consultation process has not been clearly established
or defined. For example, the Shoshone-Paiute tribal staff observed that no formal
consultation process had been established between EPA and the tribe. Further,
while communications with EPA have improved, tribal staff believe they have not
reached “true” consultation, as defined by reaching consensus.

The Washoe Tribe also noted it had experienced insufficient consultation and
stated that the requirement for “government-to-government” consultation obliged
the Agency to make every effort to involve the tribe. In a March 2001 letter to
Region 9, the Tribal Chairman provided his definition of EPA’s government-to-
government consultation responsibilities:

   ....EPA consultation with Indian tribes must be conducted with the respect
   inherent in a government-to-government relationship. Government-to-
   government consultation is not coextensive with public participation, and
   requires an active, ongoing effort by EPA to encourage the participation of
   Indian tribes affected by EPA activities. This means that EPA must make
   every effort to involve the Washoe Tribe at all stages of the cleanup process at
   Leviathan Mine, even when participation of the general public may not be
   required.”

Further, the letter from the Washoe Tribal Chairman to Region 9 noted:

   To ensure and clarify meaningful consultation between EPA and the
   Washoe Tribe, I would like to suggest that the Washoe Tribe and EPA
   enter into a Memorandum of Understanding on appropriate consultation.

Region 9 stated the letter from the Washoe Tribal Chairman resulted in an
immediate offer to meet and EPA’s suspension of any progress at the site pending
resolution. A subsequent letter from the Chairman in June 2001 noted that “in the
month since our meeting, communication and the working relationship between
EPA and Tribal staff have improved markedly.”

Meanwhile, Region 10, which has had successful tribal relationships, had
established the following “working definition” of tribal consultation:

   “Consultation” means the process of seeking, discussing, and considering the
   views of federally recognized tribal governments at the earliest time in EPA
   Region 10's decision-making. Consultation generally means more than simply
   providing information about what the agency is planning to do and allowing
   comment. Rather, consultation means respectful, meaningful, and effective
   two-way communication that works toward a consensus reflecting the

                                 34
    concerns of the affected federally recognized tribe(s) before EPA makes its
    decision or moves forward with its action.

Generally, EPA and tribes have not established site-specific written agreements
that address project roles and responsibilities, consultation procedures, and other
government-to-government activities. For example, Region 9 excluded the
Washoe’s project manager from a technical meeting that the tribe deemed
important because the tribal manager is an attorney. (Attorneys are routinely
excluded from such meetings, according to the Region.) Regional staff were
apparently unclear on tribal roles and responsibilities, since they stated they were
unaware the attorney was the tribal project manager. The Washoe Tribe also
indicated it did not receive important documents and had been excluded from a
decision about changing dates in an enforcement order. The Tribe observed that
an agreement that specifically addressed tribal involvement in decision making
would be beneficial in defining the tribal partnership role.

An experienced community involvement specialist observed that written
agreements between tribes and EPA can help build relationships and, thus, avoid
future conflicts. Items that should be considered for inclusion are:

•   Statement of a government-to-government relationship;
•   Recognition that the tribe is a sovereign nation;
•   A time line that describes the work to be performed;
•   Details on respective roles and responsibilities;
•   Procedures for consultation, including for obtaining tribal comments; and
•   Procedures for accessing tribal land.

Such agreements have proven beneficial. After encountering a serious
communication breakdown, Region 9 and the Navajo Nation developed a
project management work plan that detailed respective roles and responsibilities.
Region 10 is in the process of establishing formal memoranda of agreement with
tribes to better its relationships.

Project Outcome Expectations Differ

EPA-tribal relationships have experienced difficulties due to differences in
acceptable remediation alternatives. One apparent reason for this conflict is
because, generally, tribes place greater importance than most on the
contamination’s impact on future generations (the “seventh generation”).
Contamination problems can have a greater long-term impact because tribal
homelands are considered permanent residences – tribes cannot “pick up and
move.”

As noted, tribal cultures tend to have stronger ties to natural resource use than
most. Tribes are particularly susceptible to health impacts from contaminants
because of the traditional and cultural uses of natural resources. Fishing, hunting,

                                  35
and gathering are often part of a spiritual, cultural, social, and economic lifestyle
and the survival of many Indians is dependent upon subsistence hunting, fishing,
and gathering. Tribes often have treaties that reserve hunting, fishing, and
gathering rights in territories beyond reservations. As discussed in Chapter 2,
EPA’s risk tools do not specifically account for these unique practices.

We observed several conflicts over remediation plans. For example:

•   The Suquamish Tribe noted that one obstacle it has encountered involved
    EPA’s consideration of institutional controls, such as harvesting prohibitions,
    as a long-term remedial action. Such institutional controls adversely impacted
    the Tribe’s treaty right to harvest its fishery.

•   The Shoshone-Paiute Tribes concluded removing mine tailings is the only
    acceptable remediation solution for addressing contamination from Rio Tinto
    Mine, while the responsible parties prefer the less costly alternative of
    diverting water from tailings.

•   Region 10's relationship with the Coeur d’Alene Tribe is currently described
    as strained because the Tribe has major concerns with the cleanup plans for
    Lake Coeur d’Alene, which is partly on tribal land. For a variety of reasons,
    EPA excluded it from the Basin cleanup decision.

Transparency of Superfund Policy, Processes

Tribes observed that EPA’s policies and processes, particularly the decision
making process, are not fully transparent. This lack of transparency can lead to
perceptions that EPA is not open in its communications and information sharing,
the affected tribe is not a full partner in the process, and EPA is not objective in
its actions. For example, the Confederated Colville Tribes’ staff stated that, once
Region 10 determined that the Upper Columbia River site was eligible for the
NPL, they have been “out of the loop” on EPA’s process, actions, and strategy.
According to the Tribes, EPA’s process and strategy for making further decisions
is not transparent, nor did they believe they are a full partner. Given this
situation, along with what the Tribes believe is a lack of consultation, they are
concerned about EPA making “political” rather than objective decisions.

Impact of Tribal Consultation on Timeliness a Concern

Tribal consultation has the potential to increase the time and cost of Superfund
actions. For example, the Washoe Tribe reported that the tribal input to the risk
assessment proved to be a long process. Region 9 observed that Navajo Nation
internal processes and coordination requirements were time consuming. Success




                                  36
         is measured in the Superfund program as a whole by accomplishment of project
         milestones, such as remedy selection and construction completions. Thus, tribal
         consultation has the potential to slow project process, delaying the
         accomplishment of Superfund programmatic goals.

Successful Tribal Involvement Provides Benefits

         Tribal involvement resulted in the raising of awareness and initiation of Federal
         action on hazardous waste sites on Indian land. Because of concerns raised by the
         six tribes, the Leviathan Mine in California was included on the NPL and the
         Bunker Hill cleanup was expanded into the Coeur d’Alene Basin in Idaho.
         Region 10 staff questioned whether they would have been involved with the
         Coeur d’Alene River Basin project without the Coeur d’Alene Tribe’s leadership.
         Three additional sites are being further investigated or remediated under EPA’s
         direction or oversight: Rio Tinto Mine, Nevada; the Upper Columbia River,
         Washington; and abandoned uranium mines on the Navajo Nation.

         Based on our case studies, successful EPA-tribal relationships engage tribes,
         provide for appropriate consultation, and fully consider tribal rights and
         resources. These relationships provide additional benefits to the Agency in terms
         of providing access to information, studies, and tribal expertise; spawning tribal
         participation in mitigation; and decreasing both the time and resources necessary
         for study and investigation. Ultimately, successful partnerships can create
         stronger, more effective decisions and make tribal and other lands safer.

         Conversely, the failure to fully engage, communicate, and consult with tribes
         compromises trust in working relationships and, in one case, stopped a project.
         The failure to sufficiently consult with tribes also compromises the Agency’s
         ability to meet its Federal trust responsibility to tribes to fully consider their
         interests and protect tribal rights and resources.

Conclusions

         The effectiveness of EPA’s relationships with tribes is critical. EPA’s national
         strategy is dependent upon partnerships, notably those with tribes and States, to
         achieve EPA’s goals, including those addressing the cleanup of hazardous waste.
         Further, because of its trust responsibilities, EPA has a special obligation to
         consult with and consider tribal interests, and protect tribal rights.

         Tribes have been leaders in the investigation of contamination, and EPA has
         successfully teamed with tribal staff to reduce the time and cost of the
         investigative and feasibility study process. Conversely, conflicts have delayed
         projects and increased costs. Insufficient communications have led tribes to
         conclude consultation is deficient. While some conflicts are unavoidable, clear
         guidance on consultation will help reduce misunderstandings over whether


                                           37
         consultation has been appropriately carried out. Site-specific written agreements
         that identify roles, responsibilities, and site-specific consultation procedures can
         further ensure the tribe is appropriately engaged. Besides frequent, timely, and
         open communications, sufficient tribal funding and knowledgeable, responsive
         Agency project managers are key ingredients to successful relationships. A
         periodic evaluation of tribal relationships that addresses significant indicators of
         EPA-tribal relationships would help EPA gauge the effectiveness of its
         relationships and provide a starting point for taking actions to correct problems.

Recommendations

         We recommend that the Acting Assistant Administrator for Solid Waste and
         Emergency Response:

         4-1    In concert with efforts to develop guidance to measure tribal relationships
                (recommendation 3-3), establish tribally agreed-upon criteria for
                measuring the effectiveness of long-term relationships. At a minimum,
                consider: (1) frequent, timely communication; (2) appropriate information
                sharing; (3) addressing issues raised by tribes; and (4) operating in a
                government-to-government relationship.

         4-2    Provide clear guidance for tribal consultation, including defining
                consultation, providing an objective for consultation, setting minimal
                procedures or principles for the consultation process, and addressing the
                government-to-government relationship.

         4-3    Establish site-specific written agreements for significant tribal
                relationships that include:

                •   Statement of a government-to-government relationship.
                •   Recognition that the tribe is a sovereign nation.
                •   A timeline that describes the work to be performed.
                •   Details on respective roles and responsibilities.
                •   Procedures for consultation, including those for obtaining tribal
                    comments.
                •   Procedures for accessing tribal land.

Agency Comments, Tribal Comments, and OIG Evaluation

         The Agency has addressed the intent of our recommendations. We anticipate
         receiving more specific plans and details about the development of performance
         measures, consultation guidance, and use of site-specific agreements in its final
         response to this report.

         We received comments on our case studies from Region 9, the Washoe Tribe, and
         the Navajo Nation. We considered these comments and supporting

                                          38
                 documentation and made revisions to the report, as needed. Specifically,
                 Region 9 stated that the examples in the draft report were incomplete and
                 presented a misleading picture of the “successful” relationship between EPA and
                 the Washoe Tribe regarding Leviathan Mine. The Region noted that it had
                 quickly responded to a March 2001 letter from the Tribal Chairman criticizing
                 EPA’s approach to the project. A June 2001 letter from the Tribal Chairman
                 indicated communication and the working relationship between EPA and tribal
                 staff improved markedly. The Region provided reasons for excluding the Tribe
                 from a “brainstorming” meeting. The Region noted it had followed an 1998
                 memorandum of agreement5 in providing the Tribe information about the
                 meeting.

                 Region 9 also questioned the criteria the OIG used to evaluate EPA-tribal
                 relationships and noted if the criteria were changed to reflect regional
                 responsiveness to tribal concerns, its relationship with the Washoe Tribe would
                 meet three additional criteria. Region 9 also suggested that the chart presented in
                 Figure 4-3 appears to disregard major EPA actions that are completely in keeping
                 with appropriate government-to-government relationships.

                 The Washoe Tribe disagreed that Region 9 exclusion of its tribal project manager
                 from a technical meeting were justified or inadvertent. It also stated EPA did not
                 provide additional requested funding for a technical review of the draft remedial
                 investigation and feasibility study work plan.

                 Regarding the impact of tribal consultation on timeliness, the Washoe Tribe
                 agreed the risk assessment inputs have taken longer than anticipated. It stated,
                 however, that EPA has delayed the entire remedial investigation and feasibility
                 study process (along with the responsible party) by extending the schedule for
                 reasons unconnected with the Tribe. Consequently, the Tribe’s risk assessment
                 deliverables will be submitted to EPA when needed. It also observed better
                 coordination was needed for effective tribal participation.

                 The Navajo Nation Waste Regulatory Compliance Department provided the OIG
                 extensive comments that further address and supplement information in the
                 Navajo case study and identify issues that it believes have hampered and
                 prevented a complete assessment, listing, and cleanup of sites, including
                 “drastically” declining funding. The comments also describe perceived shortfalls
                 in EPA’s processes, standards, and regulations. The full text of their comments
                 are in Appendix B.



        5
           The 1998 memorandum of agreement is between EPA and trustees conducting a natural resource damage
assessment for the purpose of seeking compensation for interim lost value due to hazardous substance releases. The
trustees are the Washoe Tribe, US Department of Interior, and US Department of Agriculture. The purpose of this
agreement was to provide for framework for coordination among the trustees and EPA, given the differing
authorities in relation to Leviathan Mine, so as to protect or restore injured resources.

                                                        39
Regarding the Navajo case study, the Navajo Nation noted that it was concerned
the report assumed Region 9 was on the forefront to resolve the situation
regarding its presentation of water data. It stated EPA actions were not a result of
successful partnerships or effective decisions; the actions were a result of media
and publicized events. It stated that insensitivity still exists and hampers the joint
efforts.

In their response, Navajo staff reiterated the importance of properly informing
communities about Superfund activities. The information must be communicated
in the Navajo language; however, EPA Region 9 has stated that this takes too
much time and will delay “their” project, according to the Navajo. Navajo staff
noted that community input is critical. The Navajo stated EPA Region 9's
schedule did not sufficiently take into consideration public input, nor the
opportunity to improve public relations.

The Navajo waste official noted that the cultural survival of tribes is directly
affected by a tribe’s cultural and traditional values that are central to protecting
human health and the environment in Indian country. The official stated that EPA
standards and regulations are not sensitive to tribal values even when these values
are a part of tribal regulations and decisions. Too often, the official stated, EPA’s
cleanup decisions are in direct conflict with a tribe’s cleanup decision, weighing
tribal decisions against cost and going so far as to exclude tribal lands from
cleanup decisions.




                                  40
                                                                                    Appendix A


                  Agency Response to Draft Report

July 14, 2004


MEMORANDUM

SUBJECT:        OSWER Response to OIG Draft Evaluation Report Assignment
                No. 2002-001135, Tribal Superfund Program Needs Clear Direction
                and Actions to Improve Effectiveness

FROM:           Barry N. Breen/s/
                Deputy Assistant Administrator
                Office of Solid Waste and Emergency Response

TO:             Carolyn Copper
                Director of Program Evaluation: Hazardous Waste Issues
                Office of Program Evaluation, Office of Inspector General

        The Office of Solid Waste and Emergency Response (OSWER) is providing its
response to the recommendations of the Office of Inspector General (OIG) contained in the
above-referenced draft assignment. On behalf of OSWER, I thank OIG for its careful
consideration of the Superfund tribal program, and valuable suggestions for improving the
program. This memorandum reflects input from the Office of Superfund Remediation and
Technology Innovation (OSRTI). Due to the significant coordination effort with the Regions to
review tribe-specific case studies in the OIG report, OSWER will send regional comments
specific to the case study descriptions under separate cover within the next two weeks.

         Previously, the Superfund program initiated a number of projects designed to enhance the
tribal role and better address tribal hazardous waste sites, along with all other Superfund waste
sites; the program has not prioritized tribal sites separately. OSRTI also developed a draft tribal
strategy that outlined program challenges and actions planned to address tribal concerns. This
was not finalized due to some of the factors you recognize in your report. Through increased
emphasis, OSWER will finalize a tribal strategy in FY 2005. To meet this goal, OSRTI will
identify, evaluate and communicate the Superfund program’s current tribal priorities and provide
a general outline/time frame to accomplish activities to fulfill OIG recommendations.

        OSWER would summarize the OIG Report’s recommendations into three overarching
areas: (1) complete the remaining tribal commitments from the Albuquerque Forum; (2)
establish a leadership role for OSWER to ensure completion of a Superfund tribal strategy and
policies and provide for the refinement and evaluation of the strategy over time; and (3) establish
a stronger foundation for tribal working relationships, especially in the form of consultation

                                                41
guidance specific to Superfund. These recommendations may be further divided into 12 detailed
recommendations presented in chapters two through four of your report. In some cases, we
might further divide the 12 recommendations into numerous components. OSWER believes
your recommendations are interrelated, and that we should address them in a combined response.
Our response is intended to address the full intent of the recommendations without emphasizing
individual components.

        As the OIG report acknowledges, beginning in 2003, the Tribal Association on Solid
Waste and Emergency Response (TASWER) made major changes and improvements, and
started to accomplish its work plan activities. EPA continues to maintain close oversight of and
substantial involvement in TASWER’s activities and complies with relevant grant regulations
and guidance in meeting its responsibilities. OSWER’s senior program managers will discuss
options for working with various tribal associations to achieve Superfund’s long-term
commitments to tribes. These options include a full analysis of TASWER, the National Tribal
Environmental Council (NTEC), and other alternative entities in relationship to their benefits to
tribes nationally.

       The first action to address the OIG recommendations is for OSRTI to complete a
Superfund tribal strategy. In our April 27, 2004, response to OIG Assignment
No. 2004-P-00003, OSWER outlined the implementation of “core” elements of a plan for
managing Superfund tribal program responsibilities. These included: completion of an
inventory of hazardous sites of concern in Indian Country; a process for sorting sites into eligible
response programs (including, but not limited to, Superfund); revitalizing the tribal strategy for
Superfund; and ensuring that tribal cultural life ways are appropriately factored into stages of the
Superfund process. As a part of that response, OSWER provided time frames for completing
this work.

         Superfund will concentrate on accomplishing actions which represent a high priority for
tribes, as well as EPA, and for which it has the FTE and financial resources. Superfund will
develop this strategy as part of the larger OSWER tribal strategy. At this point, OSRTI intends
to focus its strategy on several key actions or priorities, consistent with those stated above and
with current OIG recommendations:

       •       complete a tribal waste inventory;
       •       issue guidance incorporating tribal cultural factors (also referred to as tribal
               traditional life ways) into the HRS and Superfund risk assessment processes;
       •       establish a forum for regions to share information related to their tribal Superfund
               efforts;
       •       involve tribes early in the Superfund process, and develop guidance to that effect;
       •       provide technical support in cases where a site is on tribal land or affects
               traditional tribal cultural factors and life ways.


The priorities for the Superfund tribal strategy identified above address the remaining
commitments from the 1999 Albuquerque forum, better define EPA’s relationship with tribes,
and support achievement of articulated goals.

                                                42
        The tribal waste inventory is an outgrowth of commitments made by EPA at the
Albuquerque forum. The OIG recently conducted an extensive study of this project
(OIG Assignment No. 2004-P-00003), and OSWER responded to your concerns by formulating
a data management plan and putting in place extensive monitoring and other controls to oversee
the work of TASWER. Through these activities, OSWER will ensure project success and
timeliness to the extent allowable under the regulations. Previously, OSWER responded to the
OIG that our goal is to complete an inventory of hazardous sites of concern in Indian Country by
the end of FY 2005.

        OSWER also recognizes that, on a variety of fronts, its programs are still addressing
unfinished commitments from the Albuquerque forum. For example, the programs still seek
other routes to address sites not eligible for Superfund and the National Priorities List (NPL).
The increased emphasis for tribes to pursue Brownfields program grants, tribal response
programs, and open dump cleanup grants (which EPA created in partnership with other Federal
agencies) is a direct result of continued efforts to find response solutions for contaminated tribal
sites. OSRTI concluded a successful State and Tribal Enhanced Role pilot with the Pueblo
Office of Environmental Protection, which resulted in the cleanup of several sheep dip vat
contaminated sites using an alternative mechanism to the NPL. Results of this pilot were shared
in several national forums and were written in several publications.

        Finally, as the OIG states, EPA personnel were developing training for tribes that would
include grants and other funding avenues relevant to providing responses at contaminated sites.
OSWER will incorporate this information into its training. OSWER will continue with this
approach with respect to the inventory of hazardous sites of concern in Indian Country
(discussed above). In its April 27, 2004 response to OIG Assignment No. 2004-P-00003,
OSWER stated that as part of developing an inventory we will sort sites in the inventory into
eligible response program categories. OSWER committed to working with other EPA offices
and Federal agencies to determine the full range of response programs other than Superfund.
OSWER will share the information from this analysis with regions and tribes.

         Efforts to incorporate tribal cultural factors into HRS and risk assessment guidance are
ongoing. Despite the initial interest of NTEC and the funding EPA offered to identify sites and
develop case studies on this issue through an OSWER-NTEC cooperative agreement, this work
was not a priority for NTEC in 2002 - 2003. Recently, to re-invigorate a solution for considering
tribal traditional life ways as part of the HRS, OSWER approved a strategy for working with
tribes to identify cultural factors it might define within HRS guidance to more fairly account for
tribal exposures to site contamination. OSRTI is currently preparing options and a plan for
communicating with tribes to ensure substantial and effective input. As a part of this plan,
OSRTI is meeting with tribes to discuss the proposed options and process. For example, in its
meeting, the Intertribal Environmental Council (ITEC) agreed to assist Superfund in its study of
incorporating cultural factors into the HRS. Superfund intends to actively work with other
tribes and tribal organizations. We anticipate completing this action in FY 2006.

        Incorporating cultural factors into risk assessment work is a larger project. A number of
other groups, in addition to the Superfund program, are researching this issue, including EPA’s

                                                 43
Office of Research and Development (through the EPA - Tribal Science Council), the Office of
Prevention, Pesticides, and Toxic Substances, TASWER, and several tribes relating to specific
interests. EPA’s American Indian Environmental Office is leading an effort to coordinate across
the agency efforts related to tribal traditional life ways and risk. OSWER is fully participating in
this coordinative effort. As this work progresses, OSRTI commits to addressing Superfund
aspects of the remaining portions of recommendation 2-2.

         OSRTI intends to establish a forum for regional discussions of tribal issues and lessons
learned. OSRTI will issue a memorandum requesting that regions designate a tribal Superfund
contact and establish monthly or bimonthly calls. This should begin in the fall of 2004 and will
first involve regions and selected tribes. Based on results of preliminary calls, OSRTI will, as
you recommend, consider expanding this to include states. Among the topics for these calls,
OSRTI will include specific OIG recommendations, such as discussion of the tribal initiatives
established under the State and Tribal Enhanced Role workgroup, and share the benefits of tribal
involvement and lessons learned.

        Another priority is to issue guidance which facilitates working effectively with tribes
early in, and throughout the Superfund process as it is implemented at specific sites. Tribes are
particularly concerned that they have the opportunity to effectively participate in technical
reviews. Tribes may lack technical expertise relevant to Superfund documents. Others are
concerned that Superfund may provide large volumes of technical material for tribes to review in
a short period of time. Tribes fear that this may result in their inability to respond in a timely
manner. Such actions could result in EPA checking the box, “tribe was consulted and had no
comments.” OSRTI’s goal is to provide guidance that explains the Federal trust responsibility,
describes how to adequately consult with tribes at particular sites, and presents examples of the
most effective practices employed by regions. This guidance may also address criteria for tribal
core program agreements, designed to help tribes develop the infrastructure needed to enhance
their technical expertise. OSRTI believes site-specific written agreements for significant tribal
relationships are assets to program implementation, and will include recommendations for their
use in the guidance. While specifically applicable to Superfund, this guidance would be
consistent with the Agency’s national tribal consultation guidance under Executive Order 13175,
currently being finalized by EPA’s Regulatory Steering Committee, and national EPA training
entitled, Working Effectively with Tribal Governments. This is a longer term project; OSWER
hopes to develop milestones early next year.

        The final priority for Superfund’s tribal strategy is to provide technical support for sites
on tribal land or affecting tribal interests. This work is ongoing in OSRTI. Incorporating the
technical support priority into the tribal strategy will enable OSWER to better consider funding
allocations among regions and varying regional workloads. OSRTI will work with tribes, using
the results of the tribal inventory above, to identify which sites of tribal interest are eligible using
defined Superfund criteria. For sites of highest tribal priority, OSRTI will work with tribes and
regions to provide technical assistance, and where available, resources to support adequate
involvement, and better ensure that tribes have the time needed to review necessary documents.
While it may be infeasible to commit unlimited resources in support of all tribes gaining
technical sufficiency, OSRTI, in tandem with the regions, will provide staff assistance,
contractor assistance, and training, to the extent of available resources, that enable tribes to

                                                  44
effectively raise and discuss concerns with the agency. EPA recognizes that removing barriers
to tribal participation is an issue separate from resolving all tribal concerns in a manner
satisfactory to the tribe. EPA will continue to prioritize sites on the basis of risk. As we work
within our statutory and regulatory authorities to protect human health and the environment in
Indian Country, we will also continue to carry out the principles of our Indian policy.

       Particular OIG recommendations focus on the actions needed to fully implement and
evaluate the effectiveness of the program’s strategy over the long term. To accomplish this, the
program must better define the role of regions within the strategy (and create consistency with
regional strategies), and work closely with tribes to shape the strategy as it is developed and
consult with tribes in developing specific milestones. OSRTI priorities will seek to balance
regional operational flexibility with clear national direction and priority.

        OSWER recognizes the difficulties associated with: establishing tribal program
performance measures; defining environmental outcomes specifically for Indian Country tied to
Superfund; identifying and quantifying viable, feasible data; and evaluating the true priority of
tribal activities. OSRTI is looking carefully at this issue and is seriously considering several
measures. One option is tracking the extent to which regions follow a proposed evaluation form
governing a process to adequately involve tribes on a site-specific basis. Another is a tracking
program for sites identified by tribes, whereby EPA may track site investigations conducted,
conditions found at the site, and cleanup conducted under either Superfund or an alternative
program (e.g., Resource Conservation and Recovery Act, brownfields, underground storage
tanks). We will, of course, track Government Performance and Results Act measures for tribal
sites. Superfund will also coordinate with OSWER to ensure measures are consistent across
programs.

         OSWER intends to seek tribal and regional review of the draft tribal strategy and
extensively publicize and coordinate implementation of the final strategy with regions and tribes
through a communications strategy. These communications will include a discussion at the
Superfund National Program Managers Meeting and at Superfund staff conferences (e.g., Site
Assessment, National Association of Remedial Project Managers) with both regions and tribes.
In addition, OSRTI will lay out its draft strategy before the Tribal Operations Committee in the
fall of 2004.

        Thank you for the detailed report and recommendations, which will assist us in
enhancing the tribal role and priorities in the Superfund program.. If you have any questions,
please contact Felicia Wright, OSWER Tribal Coordinator, at (202)566-1886, or Robert Myers,
OSRTI Tribal Coordinator, at (703)603-8851.

CC: Michael B. Cook
    Felicia Wright
    Robert Myers




                                                45
46
                                                                                    Appendix B

            Navajo Nation Comments on Case Study
                                         (Chapter 4)

The tribes included in our case studies were provided the portion of our draft report that
presented the six case studies (Chapter 4). The Navajo Nation Waste Regulatory Compliance
Department provided the OIG extensive comments which: further address and supplement
information in the Navajo case study; identify issues that it believes have hampered and
prevented a complete assessment, listing, and cleanup of sites, including “drastically” declining
funding; and describe shortfalls in EPA’s processes, standards, and regulations.

In a July 24, 2004, e-mail transmitting its comments, the Environmental Department Manager,
Waste Regulatory Compliance Department, Navajo Nation Environmental Protection Agency
(NNEPA), stated:

       I am concerned about statements from EPA Region 9 and the assumption that they were
       at the forefront to resolve the situation pertaining to their presentation of the water data.
       We have documentation available that the idea of a work group and an agreement were
       recommended by NNEPA. We went so far as to have other EPA staff observe our joint
       EPA-NNEPA meetings and they also recommended that our meetings be facilitated
       properly.

       The internal checks and balances were necessary after the breakdown. You will note in
       my comments how we document everything. You will also learn that insensitivity still
       exist and hampers our joint efforts. You will also see what we have resorted to (bringing
       in other partners) because we do not want some sites to go unaddressed.
       This study should have happen a long time ago. Perhaps we wouldn't be in the situation
       we are in now, and perhaps we would have been able to resolve our differences earlier
       and could have made more significant progress in cleaning up hazardous waste sites in
       Indian Country.

       I would like to recommend a biennial review. Above all I recommend EPA Headquarters
       visit the hazardous waste sites in Indian Country, and perhaps Tribes would not need to
       resort to law suits to compel the Regions to react to our needs.

       Trust responsibility is used so loosely by the federal agencies that is has lost its meaning.
       You don't know how many times Tribes have heard it again and again. If you use it in the
       final document please consider inserting a legal definition so that any recommendations
       that you provide will be taken seriously.

       I would also recommend a timeframe for each Region to meet with the Tribes and a
       timeframe to negotiate and implement any agreements. I know that all of this will require
       additional funds and I know those cost will be justified by the number of sites that might
       get addressed within a year or so after the agreements are in place. Re-evaluation is very

                                                47
       important to readdress areas that aren't on schedule or where other issues hamper
       progress.

       Thank you for the opportunity to comment on the draft. Your work might be completed
       with the final version; however, we may see you again if you all get to evaluate the
       outcome two years later. Good luck.

An additional e-mail from the Navajo hazardous waste department dated July 28, 2004, noted:

       In 1988, the NSP [Navajo Superfund Program] started as a program under EPA Region
       VI, within an estimated annual funding of $900,000 to support program operations and
       about 7 staff personnel. In this same year, NSP accomplished 36 Preliminary
       Assessment Reports, the initial step of the Superfund Process. In 2004, the NSP is under
       EPA Region IX, within an estimated annual funding of $200,000 to support program
       operations and about 2 staff personnel, including 3 other cost-shared positions. In this
       same year, NSP will have accomplished 2 Preliminary Assessment Reports and 1 Site
       Inspection Report. This decline in program funding and staffing has minimized program
       services to the Navajo Nation.

We received comments from four other staff members, including the Environmental Program
Supervisor for the Navajo Superfund Program, as presented in the following pages of this
appendix.




                                              48
                       Navajo Nation Environmental Protection Agency
                         Waste Regulatory Compliance Department

                                          July 19, 2004

                           Comments on the Draft Evaluation Report
    Tribal Superfund Program Needs Clear Direction and Actions to Improve Effectiveness,
           (Excerpt – Tribal Case Study Information) No. 2002-001135, June 9, 2004

I reviewed the portion provided in the Draft Evaluation Report and my comments are as follows:

Case Studies Tribal Relationships Beneficial But Guidance Can Improve Consultation –

       The statement is made that, “none of the EPA-tribal relationships exhibited all seven
       characteristics,” that EPA identified as “being needed for good working relationships.”

       Comment – Are the seven characteristics listed in Figure 4-3? How were these
       characteristics identified? Note the lack of entries on Figure 4-3. Counting the blank
       entries and the entries that state “No” it appears that both the tribes and EPA need to
       work towards establishing relationships that will meet the needs of all tribes.

       A purpose for the case study is not stated anywhere in the document. Assuming that the
       tribal portion is a part of a larger document, is the purpose described elsewhere? If the
       other part of the document pertains to states, were the seven characteristics also used to
       measure the EPA-state relationship?

       The interview that I participated in was over the telephone and the Navajo EPA
       Superfund Program was interviewed at a very busy airport for what they considered was
       a “short” interview. How conducive was the setting for each of the interviews and were
       we all asked the same questions?

       As for EPA-Navajo's relationships, there is only one characteristic that was rated with a
       "Yes" for communication "early and often" which was deficient previously. The rest of
       the characteristics are blank (incomplete, inconclusive, only partially observed) and one
       "No" rating for the characteristic for proactive efforts at project inception. Considering
       that the Navajo Nation was one of the first tribes to develop a program in 1988, we would
       have assume that the EPA-Navajo relationship would have all seven characteristics and
       that we would have a number of hazardous waste sites listed on the National Priority List,
       a number of sites cleaned up, a number of potential responsible parties identified for cost
       recovery, and be actively cleaning up non-listed sites using other mechanisms. It is very
       unfortunate that this is not the case.

       Six tribes were interviewed and EPA identified four important characteristics for
       effective relationships: frequent and timely communication (4:2); appropriate information
       sharing (2:4); addressing issues raised by tribes (3:2:1); and operating in a government-
       to-government relationship (4:2). According to Figure 4-3, establishing mutual trust (3:3)

                                                49
is also an important characteristic for establishing strong and effective relationships.
Sharing information appropriately with tribes (2:4) appeared to be effective for only two
tribes.

Based on Figure 4-3, ineffective relationships were based on the lack of proactive efforts
(5:1) at project inception and it is inaccurately stated that “(EPA initiates contact)”,
thereby implying that the tribes do not initiate contact and are not “proactive.” The
Navajo Nation has been at the forefront at seeking partnerships with EPA. We contacted
Regions 8, 9 and 6 and requested funds to assess Superfund sites. At EPA Region 8, we
were told that if they gave the Navajo Nation funds, that other Region 8 tribes would also
be asking for funds. At EPA Region 9, we were told that the Superfund Program was too
complicated and that tribes would not be able to have a program! At EPA Region 6, we
were provided with a Project Officer and funding to begin a program.

Ineffective relationships were also attributed to EPA not sharing information
appropriately with tribes (2:4); not addressing issues raised by tribes (2:3:1); the lack of
written agreements that specified clear roles and responsibilities (5:1); and the lack of
establishing mutual trust (3:3). Interpersonal relationships were effective with EPA
Region 6, and when the program was transferred to EPA Region 9 our relationships
began to decline and Figure 4-3, depicts the current EPA-Navajo relationship.

Four reasons for conflicts are stated: varying expectations of roles and responsibilities;
differences in views on acceptable project actions and outcomes; unclear consultation
procedures; and a lack of transparency of EPA’s Superfund process.

The lack of transparency of EPA's Superfund process can be attributed to the structure
and criteria that meets the needs of urban communities as opposed to rural and Indian
communities. Population density and the lack of considering traditional cultural values in
the federal Hazardous Ranking System impend the justification for further actions at
hazardous waste sites in Indian Country.

Regardless of the number of site investigations or discoveries that have been completed
by the Navajo EPA Superfund Program, we have yet to list a site. However, we have
managed to accomplish some time critical actions at a couple of sites following
intervention by the Agency of Toxics Substances and Disease Registry and national
media coverage that resulted in a publicized visit by Congressmen Patrick Kennedy. The
EPA actions were not a result of successful partnerships or effective decisions; the
actions were a result of media and publicized events.

Successful partnerships are desired not only by EPA but also by tribes who have a greater
interest and investment to minimize the risks at hazardous waste sites on human health
and the environments in Indian Country.




                                         50
 Tribal Partnerships Critical to Strategy, Trust Responsibilities –

       Comment – EPA’s standards and regulations do not acknowledge tribal sovereignty and
       do not acknowledge tribal governments as the recognized authority in setting standards
       and making policy decisions (e.g., a tribe's decision to clean close hazardous waste sites
       based on cultural considerations). EPA's national goal to clean up hazardous waste sites
       in Indian Country and to fulfill its trust responsibility to tribes has not been accomplish.
       Based on six tribes, only three tribes could reasonable demonstrate that their relationship
       with EPA was effective.

       Cultural survival of tribes is directly effected by a tribe’s cultural and traditional values
       that are central to protecting human health and the environments in Indian Country. EPA
       standards and regulations are not sensitive to tribal values even when these values are a
       part of tribal regulations and decisions. To often, EPA's clean up decision are in direct
       conflict with a tribe's clean up decision.

       Exercising and demonstrating trust responsibility is new to EPA. Even though EPA may
       go through the motions of consulting with tribes, listening to and acknowledging tribal
       positions to make clean up decisions is not occurring. EPA, like all tribes should know
       the treaty provisions and the rights that are protected. When tribes use the treaty
       provisions to emphasize the need to clean close hazardous waste sites or to require more
       stringent clean up standards, EPA no longer hears us. Instead, EPA's moral obligations
       and responsibilities are no longer relevant become tribal positions are weighing against
       the cost for clean closure and settling for the minimum clean up standards.

More Effective Tribal Relationships Associated with Key Features –

       Comment – Reference is made as to how the six tribes were selected in “Chapter 1”,
       which was not provided for our review.

Tribes Are Impetus for EPA Involvement –

       Comment – Prior to obtaining funds from Region 6 for the development of a Superfund
       Program, the Navajo Nation and the New Mexico Environmental Department listed two
       sites on the National Priority List. These sites were the Prewitt Refinery Site and the
       United Nuclear Corporation Uranium Mill Tailings Site. The Navajo Nation EPA
       Superfund Program, New Mexico Environmental Department and EPA Region 6 have
       joint oversight of these sites. Regions 8 and 9 did not acknowledge these efforts when the
       Navajo Nation sought EPA's support and requested federal assistant to begin a program.

Relationship Characteristics Key Indicators of Success –

       Comment – The adverse impacts to human health and the environment resulting from
       past uranium mining and milling activities were documented in the 1980s by the Navajo
       Tribal Environmental Protection Commission (the predecessor to the Navajo Nation
       Environmental Protection Agency). As more abandoned uranium mines were identified

                                                51
      in more than 32 Navajo communities, the Navajo Nation requested a Congressional
      Hearing in 1993 to ensure that federal resources would be available to address our
      concerns. EPA Region 9 was provided the resources and preceded with “their” project
      that did not include the active involvement of the tribe.

      When EPA Region 9 presented the one-time sampling results of the water data survey to
      the communities and told the community that using the water for drinking and various
      purposes would cause varying degrees of susceptibility to cancer, Navajo Nation EPA
      objected. We did not consider a one-time sampling event as representative sampling. We
      felt that sampling protocols needed to be followed, and that the information needed to be
      conveyed properly in the Navajo language. Despite our objections, EPA Region 9
      published a document and stated again that Navajo Nation EPA was preventing them
      from releasing the information to the communities. EPA Region 9 never retracted their
      statement and these documents are still used by the communities, other federal and state
      agencies, environmental grassroots organizations and educational institutions.

      The Navajo Nation EPA, on their own, recommended the development of a committee
      consisting of representatives from the community, public interest groups, environmental
      organizations, state and federal organizations, and colleges and universities to collaborate
      on how to address the uranium issues on Navajo. As a result, a chapter atlas for five of
      thirty uranium-impacted communities was initiated and other communities in the New
      Mexico portion of the Navajo Nation are being assessed.

Funding Also Key –

      Comment – By comparison, when EPA Region 6 provided initial funding for the Navajo
      Nation, the funding was substantial and there were more personnel who were trained to
      assess sites. When EPA Region 9 assumed the lead for the Navajo Nation (among EPA
      Regions 6 and 8) the funding declined drastically. As a result, there are fewer personnel,
      less training, less assessment of sites, and the overwhelming threat that “next year” the
      funds will be cut.

      Less funding will have a detrimental impact on whether clean ups will indeed occur in
      Indian Country. Overall, the continuous threat of receiving less funding has resulted in
      poor moral. We are compelled to “archive” more sites or we are told no hazardous waste
      sites can be listed because there are no funds to clean up the sites. We are resorting to
      other sources of funding through other federal agencies (e.g., the clean of dip vat sites by
      the Bureau of Indian Affairs). We are also resorting to improving the level of information
      that can be provided on hazardous waste sites in our communities (e.g., Chapter Atlases).
      Local planning committees are becoming aware of these sites and are able to avoid these
      sites, pending proper clean up decisions and actions.




                                               52
Differences in EPA and Tribal Expectations Create Obstacles to Effective Relationships –
       Relationship Roles, Responsibilities, and Processes Often Unclear –

       Comment – It is imperative that EPA consults with tribes individually. EPA tends to
       “lump” all tribes together and assumes that by consulting one tribe that all other tribes
       “think and feel” the same. Furthermore, EPA mistakenly assumes that by bringing up an
       issue at a national tribal meeting or by talking to a national Indian organization, that EPA
       has satisfied the consultation process. Regional and national tribal organizations do not
       represent all tribes, nor do the tribes usually support a position taken by these
       organizations.

       As long as the concept of government-to-government relationship exist, EPA will be
       compelled by tribes to pursue one-on-one consultation with individual tribes.

       The Navajo Nation and EPA Region 9 are challenge with re-establishing effective
       communication. Having effective communication and agreeing on clear define roles and
       responsibilities will help to some extent. However, having EPA Region 9 “listen” and
       developing mutual respect for one another will take time.

Project Outcome Expectations Differ –

       Comment – EPA’s clean up decisions are driven by EPA’s standards and regulations.
       Tribal clean up decisions are driven by traditional and cultural values, practices and
       lifeways that may or may not be explicitly stated in tribal laws or tribal executive
       decisions. However, the federal governments acknowledgment of a tribes’ rights to fish,
       hunt and gather does provide the bases and justification for tribal clean up decisions.
       Unfortunately, EPA will always weight tribal clean up decisions against cost and go so
       far as to exclude tribal lands from clean up decisions (EPA Region 10).

       For Navajo and perhaps for other tribes, we have exceeded the "seventh generation"
       indicator. It is unfortunate that EPA’s risk tools do not support tribal clean up decisions
       and that tribal members who live the traditional way of life will continue to be an EPA
       risk indicator at hazardous waste sites in Indian Country.

       Chapter 2 was not provided for our review, which appears to have been devoted to
       discussions of EPA's risk tools. Tribes have expressed the need to change these tools
       because it does not take into consideration traditional and cultural values. Nevertheless,
       we are required to use these tools knowing that we cannot include all the pathways of
       exposure and targets that are relevant to tribes.

       Institutional controls have long-standing impacts on a tribe's use of natural resources. The
       resources and plans to limit access and uses of natural resources effected by institutional
       controls may be appropriate in urban communities where zoning and restricts can be
       imposed. Institutional controls in rural and isolated Indian communities; however, are
       difficult to imposed because these communities are not supplemented with additional


                                                53
       resources to offset their losses. As a result, the communities will resort to continual uses
       of contaminated natural resources, which will continue to elevate their risks to exposure.

Transparency of Superfund Policy, Processes –

       To date, EPA Region 9 has been unable to provide information on the amount of federal
       funds they spent on Navajo in response to the 1993 Congressional Hearing. Likewise, the
       amount of funds to develop the Chapter atlases for the uranium impacted communities
       has not been disclosed and when the format and volume of information was reduced by
       EPA Region 9 from the original draft (Red Valley Atlas), a template for all the remaining
       atlases, we were told that the changes were necessary due to the lack of funding for the
       project. EPA Region 9's did not communicate the change to Navajo until later and tried to
       imposed the new format on us. We informed EPA Region 9 that we needed to
       communicate the changes to the Red Valley Chapter and obtain their input before
       agreeing to the change.

       In 2005, to ensure that we are involved in all aspects of the project, we included our
       participation in the development of the atlases as a work plan task.

Impact of Tribal Consultation on Timeliness a Concern –

       Comment – The government-to-government consultation process will always be time
       consuming. Although both tribes and EPA are committed to implementing this process,
       neither the tribe nor EPA are prepared to change their own internal processes so that it is
       timely and beneficial for all.

       Recently, the Navajo Nation EPA's Executive Director sought and obtained authorization
       to signed federal assistance applications on behalf of the President of the Navajo Nation
       so that we could meet EPA Region 9's deadlines for submittal. However, EPA Region 6
       would not accept the federal assistance application without the President's signature to
       continue funding for two National Priority List sites (United Nuclear Corporation and
       Prewitt Refinery) in the New Mexico portion of the Navajo Nation.


       The Navajo Nation's internal processes and coordination requirements ensures that there
       are appropriate tribal resources and that EPA Region 9 is committed to the project. Past
       experiences with EPA Region 9 and other agencies has necessitated the implementation
       of the tribal processes and coordination requirements.

Successful Tribal Involvement Provides Benefits –

       Comment – Tribes are the best position to know what and how hazardous waste sites
       adversely impact tribal people and their environment. For Navajo, EPA Region 9's past
       efforts to address the uranium issues (water data survey) has had repercussions on our
       relationship. We are more cautious, we want documentation before and after any major


                                                54
      meetings, we want and expect feedback, and we want guarantees ahead of time before
      devoting tribal resources to a project. We pursue and obtain in put for the Navajo Nation
      President and our oversight Committees to re-enforce tribal positions pertaining to
      uranium and other tribal environmental issues.

      The Navajo Nation, like EPA, remains accountable to the people. As long as there are
      differences in expectations, standards and regulations, we will be challenged to seek,
      develop and implement unique mechanisms that are sensitive to addressing tribal needs
      and yet still be able to comply with federal standards and regulations.

Conclusions –

      Comment – Although the conclusion is stated very well, it does not state how EPA will
      provide "clear guidance" for tribes. Will tribal partnerships be tailored to individual tribal
      needs? Will federal resource commitment limit the size and scope of the guidance? Will
      EPA isolate themselves from the tribes and develop the guidance? Will EPA expect all
      tribes to "fit into" the guidance? Will the guidance include consideration of tribal
      traditional cultural values?

      We agree that tribes are leaders in the investigation of contamination in Indian Country.
      During the 1993 Congressional Hearing, the Navajo Nation expressed our needs and
      expectations. Congress directed EPA Region 9 to work with the Navajo Nation; however,
      in 2003, we cannot demonstrate any progress where actual clean up has occurred other
      than the demolishment of two traditional homes and actions at the Blue Lake (a.k.a.
      Haystack) sites after the Agency for Toxics and Disease Registry completed a health
      assessment.

      Regional strategies to accomplish EPA' national goals differ. EPA Region 9 has cut
      federal funding for the Navajo Superfund Program, there is less staff, the staff's
      deliverables are questioned repeatedly, and instructions and federal resource
      commitments are inconsistent. This year, work plan approvals did not occurred until late
      as the second quarter. As a result, timeframes to implement and provide the deliverables
      are drastically effected; EPA Region 9 has capitalize on any deficiencies that are
      attributed to inconsistent, untimely, and non-committal communications by the project
      officer.

      Recently, EPA Region 9 informed the Navajo Brownfields Program that we would not
      receive any federal funds if we did not complete the development of the tribal response
      program. We understood that the public record component must be completed in the first
      year and that we could continue to work on the other remaining components. We
      submitted the public record component in the second quarter and waited for comments
      from the project officer. Since we did not receive any comments, we implemented the
      component. Here again, timeliness and expectations were different. We expected timely
      review of the public record component knowing that completion of this deliverable
      would be the bases for continual funding. EPA Region 9 neglected to acknowledge the
      delivery of the component and assumed that we did not complete it and they readily

                                                55
pointed out that we would not receive funding in 2005.

EPA's concept and mission to ensure the protection of human health and the environment
are fundamental to meeting tribal needs. This concept and mission has always existing
among tribes and for Navajo, the concept is harmony, "To walk in beauty."

EPA can learn from tribes and we are hopeful that one day soon we will see conditions in
tribal communities improve. Then we will know that EPA's concept and mission can be
demonstrated in Indian Country.

Thank you for the opportunity to comment on the draft report.




                                       56
                     Navajo Nation Environmental Protection Agency
                       Waste Regulatory Compliance Department
                              Navajo Superfund Program

                                        July 23, 2004

The Navajo Superfund Program ("NSP") was established in 1988 with a federal assistance
      grant from the U.S. Environmental Protection Agency Region 6. In 1991, a
      Memorandum of Agreement for the Implementation of Environmental Standards and
      Regulations was signed between the Navajo Nation and Regions 6, 8 and 9. As a
      result, Region 9 is responsible for providing federal financial and technical
      assistance.

The following issues have hampered and prevent the complete assessment and potential
       listing of sites; other issues pertain to the inconsistencies and lack of communication
       and resources to support our efforts to clean up hazardous waste sites:

       •   The Hazardous Ranking System is still an issue because it limits our ability to
           assess the impacts of hazardous waste sites on traditional cultural values of the
           people, land and the environment. These unique values are impacted and
           continual uses pose a potential risk to human health and the environment.

       •   We and other Tribes have expressed our concerns regarding the HRS and EPA
           has not taken and actions.

       •   We lack funding, personnel, analytical equipment and access to laboratory
           facilities to properly assess sites.

       •   EPA Region 9 is behind other Regions in implementing technical guidance that
           are necessary to complete field sampling activities. We are compelled to obtain
           this information from other Regions and sources to develop our plans for review
           by the project officer and technical personnel.

       •   Communities impacted by hazardous waste sites must be properly informed
           about Superfund activities. The information must be communicated in the Navajo
           language and EPA Region 9 has stated that this takes too much time and will
           delay "their" project (e.g., development of the Red Valley Atlas).

       •   Community input (e.g., Red Valley resident) is critical and very important. It is
           imperative that they know the content of the information so that they can
           effectively use the information in their land use plans and related infrastructure
           developments. EPA Region 9's schedule did not take into consideration public
           input, nor the opportunity to improve public relations, and to alley distrust of the
           federal government to investigate other hazardous waste sites in the community.

       •   Coordinating with other federal agencies, state environmental agencies,

                                              57
          universities, research institutions, etc., to obtain technical support, assessments
          and clean up actions that are not provided by EPA Region 6, 8, and 9.

The above issues were presented in full detail by NSP during an interview with
representatives of the Office of the Inspector General in July 2003. None of the information
we provided appears in the "Draft Evaluation Report, Tribal Superfund Program Needs
Clear Direction and Actions to Improve Effectiveness" (Except – Tribal Case Study
Information), Assignment No. 2002-001135, dated June 9, 2004.

1. Overall Comment – The report needs an executive summary and introduction to define
   the purpose and goal of the document.

2. Who authorized the case study? Who are the recipients of the document? Who, how
   and when will under take any actions to implement any recommendations? Who, how
   and when will monitor the results of the case study to ensure that EPA-Tribal
   partnerships improve and that hazardous waste sites are cleaned up in Indian Country?

3. The title of the document implies that the Tribes need the direction. The case study has
   determined that both EPA and the Tribes are in need of clear direction and actions to
   improve effectiveness. The title does not emphasize open communication, coordination,
   government-to-government relationship and partnerships.

4. The pages need to be numbered. It was difficult to review only the excerpt that
   pertained to Tribes because we do not know how the rest of the document relates to the
   need to improve partnerships and to be effective at clean up hazardous waste sites.

5. An introduction, background, purpose and methods for the development of the seven
   characteristics, and the process for the selection of Tribal participants would have been
   helpful. The information is general about hazardous waste sites on other Tribal lands
   is very important.

6. Page 1, last paragraph, referenced the EPA Strategic Plan 2003 to 2008. The Navajo
   Nation requested and received this document in June 2004. The EPA Region 9 project
   officer requested a certain statement from the strategic plan be included in the NSP
   work plan in May 2004. The project officer approved our work plan in February 2004
   and never mentioned the strategic plan. Are Tribes required to include the EPA
   Strategic Plan in the Tribal work plan?

7. Page 2, Table (Figure 4-3), the table list the six Tribes that were interviewed. Was
   there a similar case study in Regions 6, 8 and Region 5? What were the results of that
   case study?

8. Page 8, second paragraph, “Impact of Tribal Consultation of Timeliness a Concern."
   This appears to be a comment by EPA Region 9. One of the seven characteristics
   states, "early and often" communication. Typically, we are informed when something
   is due or past due. The tribal process is necessary because of the repeated changes
   that occur to our work plans and budgets. Tribal officials expect EPA to guarantee the

                                            58
   amount of funds and to ensure that priority hazardous waste sites are properly
   addressed. EPA Region 9 needs to understand that Tribe have there own checks and
   balances.

9. Navajo Nation EPA values public input on all environmental projects and activities;
   however, EPA considers public input as a hindrance. Tribal interest and sensitivity of
   utmost importance to Navajo.

10. To enhance the understanding of our traditional and cultural values, EPA officials have
    meet with Navajo people, grassroots organizations, Navajo leaders and officials on
    environmental issues and concerns about hazardous waste sites in the communities.

11. Last Page. The conclusion should include recommendations for EPA and Tribes.




                                            59
    M-E-M-O-R-A-N-D-U-M

   TO      :             Arlene C. Luther, Department Director
                         Waste Regulatory & Compliance Department
                         Navajo Nation Environmental Protection Agency (NNEPA)

   THRU:                 Diane J. Malone, Program Manager
                         Navajo Superfund Program (NSP), NNEPA

   FROM:                 Stanley W. Edison, Chemist
                         Preliminary Assessment Site Assessment (PA/SI), NSP

   DATE:         July 26, 2004

   SUBJECT: DRAFT Evaluation Report titled: "Tribal Superfund Program Needs Clear
Direction and Actions to Improve Effective".

    Pursuant to the subject, staff reviewed the draft report, and provides the following
comments: The title page of the report should be appropriately titled "USEPA and Tribal
Superfund Programs Needs Clear Direction and Actions to Improve Effectiveness", which
will indicate a cooperative approach and search for clearer directions and actions at both
governmental levels. The current title and the report implies that USEPA is the only entity
seeking better relationships with Tribes, where as Tribes have reviewed EPA as partners
in addressing tribal environmental problems.

    The construction of the report should have the following: A Table of Content is needed
to allow the reader to glance at the construction and direction of the report. The report
should have an introductory, purpose, and sections for each tribal evaluation to allow the
reader a better understanding of the intent of the report. The report should have separate
sections for each of the six tribes evaluated. This will allow each tribe to have a better
understanding on what their short falls are in terms with their relationships with EPA, in
reference to EPA's relationship indicators.

    The report needs elaborate more on the following: The report needs to be more explicit
on how the seven characteristics for good EPA/Tribal working relationship were developed.
The report implies that EPA developed these seven items, placed tribes into these
characteristic items to determine their relationship and work effectiveness. It would appear
that the evaluation report would have more merit if Tribes and EPA mutually developed
these good relationship characteristics/indicators for good working relations, which is to be
achieved by both governments. The report should elaborate more on why only six tribes
from EPA Region 9 and 10 were selected for this case study. Does EPA intend to have the
selected tribes represent EPA's effectiveness in evaluating Tribal/EPA tribal relationships
within the whole of "Indian Country"? There should be a total tribal involvement from each
EPA region in the construction of this evaluation report.

   An overall report needs to be mutually developed by both Tribes and EPA as an

                                             60
evolution towards making a better government-to-government relationship. This overall
"guidance" document must be developed at a national level to address overall needed
improvements in Tribal/EPA relationships and consultation processes, to include current
key success indicators. This guidance document can be further broken down at the
regional level to address specific issues such as: Communication Protocols, Tribal
Sovereignty, Tribal/EPA expectations, Roles and Responsibilities, and EPA Funding levels.
In addition, a mutually developed follow-up mechanism needs to be in place to review
Tribal/EPA relationships processes in all EPA regions on an annual basis. The follow-up
report can be reviewed by both Tribe/EPA to gauge work and achievement progress.

    This overall guidance needs to include processes where Tribal/EPA can work together
to refine the national Superfund requirements to better address environmental problems
unique to Indian Country. The "EPA only lead" at the National Priority Listing site status
needs to change to include co-leads with affected Tribe. The changes should include the
ability to refine site-ranking requirements such as Superfund's Hazard Ranking System to
address problems in rural areas (Indian Country) and not just the city environment. Tribal
involvement through out the whole Superfund Process can only lead to successful site
remediation satisfactory to both governmental levels.

    This draft report is a good start towards defining and developing good Tribal/EPA work
relationships. All Tribes and regional EPA must work together at all levels in developing
and maintaining good working relationships. Tribes and EPA working together as equal
partners towards addressing the environmental problems in Indian Country can only lead
better solutions and success for the all affected entities.

   Thank you for the opportunity to review and comment on the subject report. If you have
any questions or comments, please contact me.


Xc:D.Malone, Program Manager
   NSP files




                                           61
                                    M-E-M-O-R-A-N-D-U-M

   TO      :       Diana J. Malone, Program Manager
                   Waste Regulatory Compliance Dept./Superfund Program
                   Navajo Nation Environmental Protection Agency

   FROM:           Eugene Esplain, Health Physicist
                   Waste Regulatory Compliance Dept./Superfund Program
                   Navajo Nation Environmental Protection Agency

   DATE:       July 27, 2004

   SUBJECT:Comments on Draft Evaluation Report – Tribal Superfund Program Needs Clear
Direction and Actions to Improve Effectiveness

    First, I apologize for the delay in providing comments on the U.S. Office of Inspector
General’s draft Evaluation Report titled “Tribal Superfund Program Needs Clear Direction and
Actions to Improve Effectiveness.” It is of my opinion that the report is a very rough draft and
needs additional work to make it helpful to the Navajo Nation, as well as to the other tribes who
participated in the evaluation.

   Initially the title of the draft evaluation report does not provide an accurate picture on its
content. Its title should be reworded to “U.S. EPA with Tribal Superfund Program Needs Clear
Understanding and Actions to Improve Effectiveness.” As it is, it’s giving U.S. EPA has all the
answers and do not need directions or understandings to improve effectiveness.

   There is no introduction or purpose in the report. It would be beneficial to know what
prompted the evaluation and what its ultimate purpose is. Just to note that it is a compilation of
case studies does not provide the report’s intention.

    Within the two Regions, the draft report had only six tribes evaluated and others left out? It
would be beneficial to know how the other tribes rate the EPA/Tribal relationship. Regarding
the recommendations made, how will they be implemented throughout?

   According to Figure 4-3 (table), 19 out of 42 were not answered (blank) and no real
explanation is provided. Will EPA continue its evaluation on the characteristics that were left
unanswered?

    Some items discussed were left out, i.e., traditional and cultural values not being taken into
consideration in the Hazard Ranking System (HRS) criteria, and how the HRS is mostly geared
towards urban settings and thereby leaving out tribal-related factors. This is a contention that
tribes have been expressing for many years.

    Where does the Agency for Toxic Substances Disease Registry (ATSDR) and Natural
Resources Damage Act (NRDA) fit into this? Will the recommendations help tribes to cleaning
up contaminated sites? Or will it help tribes in its Brownfields process of assessing and cleaning
up sites?



                                                62
                                                                            Appendix C


                                 Distribution

Environmental Protection Agency

         Director, Office of Superfund Remediation and Technology Innovation (5201G )
         Director, State, Tribal, and Site Identification Center (5204G)
         Director, American Indian Environmental Office (4104M)
         EPA Tribal Operations Committee
         Tribal Coordinator, Office of Solid Waste and Emergency Response (5101T)
         Director, Office of Acquisition Management (3801R)
         Chief Financial Officer
         Agency Followup Official (2710A)
         Agency Followup Coordinator (2724A)
         Associate Administrator for Congressional and Intergovernmental Relations (1301A)
         Associate Administrator for Public Affairs (1101A)
         Regional Administrators
         Inspector General (2410)


Tribes and tribal organizations (included in report)

         Coeur d’Alene Tribe
         Confederated Tribes of the Colville Reservation
         National Tribal Environmental Council
         Navajo Nation
         Shoshone-Paiute Tribes of the Duck Valley Reservation
         Suquamish Tribe
         Tribal Association on Solid Waste and Emergency Response
         Washoe Tribe of California and Nevada




                                           63
